<html>
<title> - PROTECTING THOSE WHO BLOW THE WHISTLE ON GOVERNMENT WRONGDOING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
                          PROTECTING THOSE WHO

                          BLOW THE WHISTLE ON

                         GOVERNMENT WRONGDOING

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2020

                               __________

                           Serial No. 116-84

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



                  Available on: http://www.govinfo.gov
                           oversight.house.gov
                           
                           
                           
                           
                              _____

              U.S. GOVERNMENT PUBLISHING OFFICE 
 39-579                WASHINGTON : 2020 
                           
                           
                           
                           
                           
                           
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                          Taylor Jones, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Mark Meadows, North Carolina, 
    Columbia,                            Ranking Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Jody B. Hice, Georgia
Brenda L. Lawrence, Michigan         Glenn Grothman, Wisconsin
Stacey E. Plaskett, Virgin Islands   James Comer, Kentucky
Ro Khanna, California                Ralph Norman, South Carolina
Stephen F. Lynch, Massachusetts      W. Gregory Steube, Florida
Jamie Raskin, Maryland

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on January 28, 2020.................................     1

                               Witnesses

The Honorable Glenn A. Fine, Principal Deputy Inspector General, 
  Department of Defense
Oral Statement...................................................     6
David K. Colapinto, Founder and General Counsel, National 
  Whistleblower Center
Oral Statement...................................................     8
Elizabeth Hempowicz, Director of Public Policy, Project on 
  Governemnt Oversight
Oral Statement...................................................     9
Paul Rosenzweig, Resident Senior Fellow, National Security and 
  Cybersecurity, R Street Institute
Oral Statement...................................................    11
The Honorable Michael E. Horowitz, Inspector General, U.S. 
  Department of Justice
Oral Statement...................................................    13
Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: house.gov.

                           Index of Documents

                              ----------                              

Documents listed below are available at:docs.house.gov.

  * Written testimony from Tom Devine; submitted by Rep. 
  Connolly.

  * Article from the Washington Post, "Schiff's claim that the 
  whistleblower has a `statutory right' to anonymity;" submitted 
  by Rep. Hice.

  * Letter to Assistant Attorney General Steven Engel; submitted 
  by Rep. Sarbanes.

  * An open letter to the American people signed by former 
  inspectors general; submitted by Rep. Speier.

  * Letter from the National Whistleblower Center to Rep. 
  Connolly; submitted by Connolly.

  * QFR's from Rep. Connolly to Mr. Rosenzweig at National 
  Security and Cybersecurity, R Street Institute; and responses.

  * QFR's from Rep. Connolly to Mr. Horowitz at the U.S. 
  Department of Justice.

  * QFR's from Rep. Connolly to Ms. Hempowicz at Project on 
  Government Oversight; and responses.

  * QFR's from Rep. Connolly to Mr. Fine at the U.S. Department 
  of Defense; and responses.

  * QFR's from Rep. Connolly to Mr. Colapinto at the National 
  Whistleblower Center; and responses.


                          PROTECTING THOSE WHO

                          BLOW THE WHISTLE ON

                         GOVERNMENT WRONGDOING

                              ----------                              


                       Tuesday, January 28, 2020

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Gerald E. 
Connolly (chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Maloney, Norton, 
Sarbanes, Speier, Khanna, Lynch, Raskin, Meadows, Jordan, 
Massie, Hice, Grothman, and Comer.
    Also present: Representative Armstrong.
    Mr. Connolly. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time. And I'm going to recognize myself for my 
opening statement and the ranking member will give his as soon 
as he arrives. I'm beginning because I'm a little worried about 
votes and want to try to give everyone the opportunity to be 
heard.
    We hold this hearing at a critical moment in our Nation's 
history. A whistleblower who reported a reasonable belief about 
a Presidential misconduct has become the target of the 
President's wrath. In tweets and statements to the press, the 
President himself has tried to identify the whistleblower and 
has called upon others to publicly identify the whistleblower. 
Threats against the whistleblower are reportedly increasing.
    This is a sad and, for me, dangerous moment for 
whistleblower. For many administrations, Federal employees and 
contractors have come forward to expose waste, fraud, and 
abuse. Whistleblowers have recovered billions of government 
dollars from companies that attempted to defraud the 
government. Whistleblowers exposed unacceptable cost overruns 
on agency projects and programs within the government.
    They improved quality control at our Nation's nuclear 
facilities, fought for our veterans to receive the healthcare 
services they have earned, ensured the food we eat is safe, and 
exposed security breaches at our government's most sensitive 
laboratories.
    These brave whistleblowers risk their reputations, careers, 
even their health and their family's safety sometimes when they 
make such allegations. They take great professional and 
personal risks.
    For decades, Congress has worked on a bipartisan fashion to 
protect these whistleblowers, and we've enacted laws that 
encourage workers to come forward when they see waste, fraud, 
and abuse. We've created laws that punish retaliation against 
these whistleblowers.
    I hope the hearing today helps us build on that important 
work and addresses some of the challenges to our whistleblower 
protections that have been brought to light by current 
circumstances.
    We rely on whistleblowers every day to help us with our 
Oversight and Reform work. Without those whistleblowers, 
rooting out mismanagement, abuse, and corruption would be very 
difficult.
    In fact, the most recent Office of Personnel Management 
survey of Federal employee engagement found that only 64.5 
percent of Federal employees believe that they can disclose 
suspected violations of law, rule, or regulation without fear 
of reprisal, 10.5 percent lower than what was reported by 
private sector employees.
    This hearing will clarify what a whistleblower is and what 
protections a whistleblower is afforded. No one should be 
punished for doing the right thing.
    Contrary to the allegations of certain pundits, 
whistleblowers can be anonymous or confidential, and they can 
provide information secondhand, and they deserve protection 
from retaliation.
    Today, we also examine the roles of Congress, the 
inspectors general, the Office of Special Counsel, and the 
Merit Systems Protection Board in engaging whistleblowers, 
protecting them, and pursuing meritorious allegations.
    When whistleblowers produce credible information on 
wrongdoing, these are the entities we expect to step into the 
breach, to launch investigations and help the facts come to 
light. If whistleblowers have no expectation that the 
information they provide will help hold people and institutions 
accountable, they have little incentive to come forward.
    Finally, we'll examine whether existing laws are sufficient 
enough to protect whistleblowers. The President's attacks on 
the whistleblower have exposed some uncertainties and questions 
about Congress' clear intent to provide robust protections to 
those who expose wrongdoing in government. The administration's 
attacks on whistleblowers certainly have had a chilling effect 
on those who in other administrations would otherwise have come 
forward to expose wrongdoing.
    This hearing seeks to ensure that those protections are 
clear and strong and that those who retaliate against 
whistleblowers are held accountable.
    The hearing is also a reminder that the Merit Systems 
Protection Board, the independent agency that serves as the 
guardian of the Federal merit system, still lacks a quorum and 
remains unable to issue final decisions in cases where 
employees' rights are at stake.
    The Board is vital to whistleblowers in particular. In 
fact, my first hearing as chairman of the subcommittee focused 
on the need to get MSPB operating, and we have bipartisan 
consensus about that goal. And yet here we are a year later and 
the MSPB remains largely inoperable. It's a crisis that 
continues, unfortunately, to be ignored.
    In May, I introduced legislation with my friend, our late 
chairman, Elijah Cummings, that would delegate temporary 
authority to the MSPB general counsel to stay questionable 
personnel actions brought by agencies against whistleblowers. 
The general counsel's authority would expire once one Board 
member is nominated and confirmed by the Senate. The bill, 
which was voted out of this full committee on a bipartisan 
voice vote, awaits floor action, and I hope that will happen 
expeditiously.
    Our efforts to get the MSPB running are in addition to 
other bipartisan legislative and oversight efforts to support 
whistleblowers. In the last Congress, I worked with my 
colleague, Representative Sean Duffy, to enact the Follow the 
Rules Act, which restored key whistleblower protection gutted 
by the Supreme Court. The law prohibited agencies from 
retaliating against employees who refused orders that, if 
performed, would violate a rule or regulation.
    In this Congress, I was joined by three of my Republican 
colleagues, including my good friend, Ranking Member Mark 
Meadows, in championing the Whistleblower Expansion Act of 
2019. That bill seeks to clarify that subcontractors and 
subgrantees are afforded whistleblower protection.
    I trust this hearing continues a strong tradition of 
bipartisan support for whistleblowers whose protections do not 
change according to political context. In the words of 
Republican Senator Chuck Grassley of Iowa, "Members of Congress 
and the public," he said, "owe a debt of gratitude to our 
fellow citizens who are willing to stand up for what's right, 
despite the personal consequences they may face. Their efforts 
should never be overlooked or taken for granted."
    I hope to work across the aisle to clarify misconceptions 
about whistleblowers and to enact legislation that may be 
needed to clarify and bolster protections. Retaliation against 
brave individuals who come forward must never be acceptable and 
it's a disservice to our country and our government.
    Finally, I want to remind everyone of the committee's Blow 
the Whistle tip line. We, ourselves, have a tip line for 
whistleblowers. Those who have information about waste, fraud, 
and abuse, or gross mismanagement, can provide it to this 
committee through our portal at [http:]oversight.house.gov. And 
you can do it anonymously if you choose.
    Mr. Jordan, are you going to have an opening statement for 
the minority?
    Thank you.
    I recognize Mr. Jordan for his opening statement.
    Mr. Jordan. Thank you, Mr. Chairman. Thanks for this 
hearing. I want to thank all our witnesses for being here 
today.
    And I do look forward to talking about the whistleblower 
issue--in particular, the whistleblower, the anonymous 
whistleblower, with no firsthand knowledge, who had a bias 
against the President, and who worked with Joe Biden, that 
became the basis for what now our country has lived through for 
four months. I look forward to getting into that issue and this 
idea of anonymity versus any type of retaliatory action and 
those issues.
    But there's also another issue that is important. It's been 
over six weeks since Inspector General Horowitz released his 
report detailing the FBI's illegal surveillance of President 
Donald Trump's campaign back in 2016, six weeks since the 
inspector general published his findings that the FBI illegally 
spied on then candidate Trump.
    We know it was illegal spying because the Justice 
Department admitted it. Just last week, the FBI admitted that 
they didn't have evidence for at least two warrants on the 
Trump campaign.
    Inspector General Horowitz, we are glad that you're here. 
But for the life of me, I can't imagine why this committee, the 
committee that has direct jurisdiction over the inspectors 
general, would not call you to testify about the serious FBI 
abuses that you uncovered. It has been six weeks since you 
published your 400-plus-page report about the FBI abusing the 
FISA Court to spy on the Trump campaign and our chair has still 
yet not invited you to speak.
    Think about what the FBI did. They went to a secret court 
to get a search warrant to spy on a Presidential campaign in 
America. They did it.
    This is what the FISA Judge, Rosemary Collyer, said just 
last month, December 17, 2019, quote,``The frequency with which 
representations made by FBI personnel turned out to be 
unsupported or contradicted by information in their possession, 
and with which they withheld information detrimental to their 
case, calls into question whether information contained in 
other FBI applications is reliable.''
    Put that in plain English, you guys screwed up so much, how 
could we trust any other representation you've made to the 
court? That's what the FISA Court judge said last week in 
response to Mr. Horowitz's 400-plus-page report.
    Think about what was going on here. The FBI's basis in 
asking the court to spy on the Trump campaign was, quote, 
``unsupported or contradicted by information in their 
possession.'' The FBI had evidence that members of the Trump 
team were innocent and they held that back from the court. 
Remember, they got the initial application, the initial 
warrant, and then they did three renewals. Didn't tell the 
court important information in those renewal applications.
    The report is so unbelievable, you could not even make some 
of this stuff up for a TV show. No American suspects things 
like this occur. An FBI lawyer fabricated an email to support a 
warrant on the Trump campaign. The FBI was doing this to a 
Presidential candidate. Think about what they could do to 
regular Americans. And that's why Judge Collyer ordered the FBI 
to begin reviewing other applications.
    And we still have not had a FISA hearing, neither here, or 
maybe more importantly, in the Judiciary Committee. Chairman 
Nadler's yet to call a hearing. This is a whistleblower 
hearing. It's an important issue that I'm looking forward to 
discussing. But I will also take this opportunity, as I said 
earlier today, to ask a few questions about Inspector General 
Horowitz's findings in his report.
    The chair told us earlier this month that the inspector 
general has already testified before the Senate and that his 
presence before our committee is unnecessary. Since when did 
the Oversight Committee say, ``Oh, if the Senate's doing it, we 
don't have to have a hearing''? I've never heard that. In my 13 
years in Congress, never heard that.
    And imagine if it was reversed? Imagine if Inspector 
General Horowitz uncovered the FBI fabricating emails to spy on 
candidate Clinton. Bet you the Democrats would be having 
hearings in this committee. We'd have already had several, both 
in this committee and the Judiciary Committee.
    So, this is important stuff and I look forward to dealing 
with all these issues in this setting. And I want to thank our 
witnesses, in particular Inspector General Horowitz, for your 
work and for being here today.
    And with that, Mr. Chairman, I yield back.
    Mr. Connolly. I thank Mr. Jordan and certainly can relate 
to the idea that we don't always have witnesses or hearings 
that we would like. I have a whole list of witnesses that, 
unfortunately, you, Mr. Jordan, don't support coming before 
this committee.
    Mr. Jordan. Well, you can call them now, you're the 
chairman.
    Mr. Connolly. Well, unfortunately, some of them would 
require a subpoena and they are in the business of defying a 
subpoena.
    So, we can't have it both ways. We can have Mr. Horowitz. I 
would like to have Mr. McGahn. I would like to have Mr. Bolton. 
I'd like to have Mr. Mulvaney.
    Mr. Jordan. Mr. McGahn testified for 30 hours.
    Mr. Connolly. I know, but we can't quite sound so 
sanctimonious about the lack of a hearing when in fact our own 
record defies that, when our own record supports withholding 
information relevant----
    Mr. Jordan. Mr. Horowitz issued a 400-plus-page report last 
month, Mr. Chairman.
    Mr. Connolly. Yes. And the Democrats provided 28,000 pages 
of documents to the U.S. Senate that could be enhanced it if we 
had certain witnesses.
    Mr. Jordan. The Senate had Mr. Horowitz testify----
    Mr. Connolly. So, his point--your point is well taken, I'd 
just amplify on it.
    Now I want to welcome----
    Mr. Jordan. I have unanimous consent request, if I could, 
Mr. Chairman, just that Mr. Armstrong be allowed to participate 
in today's hearing.
    Mr. Connolly. Without objection, so ordered.
    I now want to introduce our panel.
    Welcome.
    We are joined by the Honorable Glenn Fine, principal deputy 
inspector general performing the duties of inspector general at 
the Department of Defense.
    By the way, our office wants to thank you, and I want to 
thank you personally, for helping us on an amendment to the 
defense bill regarding the incidence of domestic violence and 
abuse. I think we had a very good outcome on a bipartisan 
basis. Thanks to your office and yourself for that support.
    David Colapinto, who is the founder and general counsel of 
the National Whistleblower Center.
    Welcome.
    Elizabeth Hempowicz, director of public policy on the 
Project of Government Oversight.
    Welcome.
    Paul Rosenzweig, resident senior fellow at the National 
Security and Cybersecurity, R Street.
    And the Honorable Michael Horowitz, the subject of some 
previous conversation, inspector general at the Department of 
Justice, a frequent flyer here at the Oversight and Reform 
Committee.
    Welcome back.
    If you would all stand to be sworn in. It is the habit, as 
you know, of our committee and subcommittees to swear in our 
witnesses. If you'd raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show--thank you--that all of our witnesses 
answered that in the affirmative.
    The microphones are sensitive, so please speak directly 
into them. Pull them close to you when you are addressing us.
    Your written statements, without objection, will be entered 
in full into the record for this hearing, and so we encourage 
you to summarize your written testimony as expeditiously as you 
can. But you have a full five minutes if you want to use.
    And we will start, Mr. Fine, with you. Welcome.

STATEMENT OF GLENN A. FINE, PRINCIPAL DEPUTY INSPECTOR GENERAL 
 PERFORMING THE DUTIES OF THE INSPECTOR GENERAL, DEPARTMENT OF 
                            DEFENSE

    Mr. Fine. Thank you, Chairman Connolly, Representative 
Jordan, and members of the subcommittee. Thank you for inviting 
me to testify today on the important contributions of 
whistleblowers and the need to protect them from reprisal.
    I have been serving as the head of the DOD Office of 
Inspector General for over four years. Prior to this position, 
in addition to working as an attorney in private practice, I 
was the inspector general of the Department of Justice for 11 
years, from 2000 to 2011.
    In my written statement I discuss the significant 
contributions of whistleblowers in the DOD, how the DOD OIG 
evaluates and investigates whistleblower disclosures and 
complaints of reprisal, and several best practices we have 
implemented at the DOD OIG to improve our timeliness and 
efficiency in whistleblower investigations. I will discuss a 
few key points from that written statement.
    First, whistleblowers play a crucial role in exposing 
waste, fraud, abuse, misconduct, and other violations of law in 
government programs and operations. These whistleblowers must 
be protected from reprisal for their protected disclosures.
    There are many examples of whistleblowers exposing 
misconduct, saving taxpayer money, and improving the efficiency 
and effectiveness of DOD operations. For example, the Glenn 
Defense Marine Asia case, the so-called ``Fat Leonard'' case, 
is one of the largest and most complex public corruption 
criminal cases in DOD history, involving criminal conduct 
throughout the Navy's Seventh Fleet. It started with a 
whistleblower. And there are many other examples of 
whistleblowers exposing wrongdoing, and I have provided a few 
more in my written statement.
    The DOD OIG takes seriously our responsibility to handle 
the increasing number of whistleblower disclosures and 
whistleblower reprisal allegations that we have received. We 
have therefore implemented several best practices in recent 
years to improve the effectiveness of our whistleblower 
programs.
    For example, to handle incoming whistleblower allegations 
in a more timely and thorough manner, we have reallocated 
significant resources to the DOD OIG's Administrative 
Investigations component, which is responsible for the DOD 
Hotline, senior official misconduct investigations, and 
whistleblower reprisal investigations.
    Specifically, we increased staffing in Administrative 
Investigations from 114 positions in Fiscal Year 2016 to 154 
positions in Fiscal Year 2019.
    We also established an Alternative Dispute Resolution 
program as an option for resolving certain whistleblower 
reprisal complaints. ADR is a voluntary process, facilitated by 
a DOD OIG attorney, in which the parties agree to use mediation 
to seek resolution of a complaint prior to a potentially 
lengthy investigative process.
    Since October 2017, the DOD OIG ADR program has resulted in 
settlements for 114 complainants and their employers. POGO has 
highlighted our ADR program as a model program and recommended 
that other IGs consider adopting similar programs.
    We believe that IGs also have a responsibility to be 
transparent with our findings, particularly when the matters 
involve issues of significant public concern and relate to high 
level officials' actions in their official duties. We have 
therefore implemented a proactive release policy. We consider 
each of our reports of investigation, including cases arising 
from whistleblower disclosures and whistleblower reprisal 
cases, for public release. POGO also recently noted our 
decision to proactively release reports, calling it a powerful 
means of increasing the government's accountability to the 
public.
    The DOD OIG's training curriculum for whistleblower 
reprisal investigators is also a model program and covers all 
aspects of evaluating, investigating, and reporting on reprisal 
complaints. We regularly deliver our course to participants 
throughout the DOD and to other Federal OIGs.
    In addition, the DOD Hotline hosts a worldwide outreach 
event each July on National Whistleblower Appreciation Day. The 
event recognizes the importance of whistleblowers and also 
provides a forum to share best practices.
    Finally, when whistleblower reprisal cases are 
substantiated, it is critical that management take prompt 
remedial action to make whistleblowers whole. However, recently 
we have seen a disturbing trend in the DOD disagreeing with the 
results of our investigations or not taking disciplinary action 
in substantiated reprisal cases without adequate or persuasive 
explanations.
    Failure to take action sends a message to agency managers 
that reprisal will be tolerated and also to potential 
whistleblowers that the system will not protect them.
    In conclusion, whistleblowers regularly expose waste, 
fraud, abuse, and misconduct, and the DOD OIG seeks to 
investigate their allegations fully, fairly, in a timely way. 
These whistleblowers must be protected from reprisal. And when 
their allegations of reprisal are substantiated, prompt 
corrective action should occur.
    The DOD OIG has made significant improvements in our 
handling of these important matters. We recognize that more 
work needs to be done, and we will continue to focus attention 
on this critical area.
    That concludes my testimony. I'll be glad to answer any 
questions.
    Mr. Connolly. Thank you, Mr. Fine. Good job of summarizing.
    Mr. Colapinto.

 STATEMENT OF DAVID K. COLAPINTO, FOUNDER AND GENERAL COUNSEL, 
                 NATIONAL WHISTLEBLOWER CENTER

    Mr. Colapinto. Chairman Connolly, Representative Jordan, 
and members of the committee, my name is David Colapinto. I'm a 
cofounder of the National Whistleblower Center, a nonpartisan, 
nonprofit organization in Washington, DC, that is devoted to 
advancing the rights of whistleblowers.
    I'm also a legal practitioner who has represented 
whistleblowers in the government and private sectors for more 
than 30 years.
    Thank you for inviting me to testify to share my 
perspective.
    We can't begin to appreciate the courage of the women and 
men in the Federal work force who report wrongdoing, either 
openly through their chain of command at their agencies, or 
confidentially to the inspector general or the Office of 
Special Counsel, or even to Congress. Federal whistleblowers 
face such enormous risks for reporting misconduct, waste, 
fraud, abuse, and dangers to the public health and safety it's 
a wonder that anyone does it at all. But they do it at the risk 
of being called a rat, a snitch, a traitor, a spy, or worse, 
not to mention facing discipline or removal for blowing the 
whistle.
    By contrast, the legal protections for whistleblowers in 
private industry, publicly traded companies, Federal 
contractors, and even in state and local government exceed the 
whistleblower rights and remedies currently available to 
Federal employees.
    For effective anti-retaliation protections to work, there 
must be, one, a safe channel for employees to report wrongdoing 
confidentially; two, strong legal remedies to address 
whistleblower retaliation whenever it occurs; three, a work 
force culture that supports whistleblowers and encourages them 
to report serious wrongdoing.
    Fortunately, there is a strong foundation on which to 
build. Congress can make whistleblowing effective in the 
Federal Government by focusing on the following areas.
    First, strengthen and clarify confidentiality. While 
Congress has guaranteed whistleblower confidentiality for 
decades, there exists some confusion about how it works. 
Therefore, we suggest that Congress clarify Federal 
whistleblower confidentiality to provide Federal employees with 
the same remedies available under other whistleblower laws.
    For example, in 2014 the U.S. Court of Appeals for the 
Fifth Circuit held that an employer's breach of a 
whistleblower's confidentiality in itself was a violation of 
the corporate anti-retaliation statute and gave rise to an 
award of noneconomic compensatory damages for private sector 
employees.
    In reaching this conclusion the court observed it is 
inevitable that the disclosure of a whistleblower's identity 
would result in ostracism and that no one volunteers for the 
role of social pariah.
    Congress should make clear that Federal employees have the 
same remedies in the event that whistleblower confidentiality 
is ever breached. Additionally, the identity of whistleblowers 
and other personal information about them is stored in systems 
of records protected by the Privacy Act. Congress should 
strengthen the civil remedy provisions of the Privacy Act.
    Second, provide district court access in retaliation cases. 
Federal civil servants are the only major sector of the work 
force that don't have the right to bring whistleblower cases to 
U.S. district court and seek a jury trial. Congress must grant 
this right as it has done for employees in the private sector.
    Administrative remedies alone do not work. The backlog at 
MSPB is near 2,500 cases and rising. The lack of court access 
is a disincentive to whistleblowing and enables the wrongdoing.
    Third, change the work force culture. In 2011, the history 
of the whistleblowers of 1777 began to be retold and it was 
discovered that the Continental Congress passed the first 
whistleblower law in 1778, during the American Revolution. For 
the past several years, the Senate has recognized July 30 as 
National Whistleblower Appreciation Day to commemorate the 
passage of the first whistleblower bill, and we appreciate 
Members of the House, including Ranking Member Meadows, IG 
Horowitz, and others for speaking at these events.
    But Congress should make National Whistleblower 
Appreciation Day permanent to recognize the importance of 
whistleblowing as a fundamental policy. While this may appear 
to be symbolic, it would help change the culture in the Federal 
Government toward whistleblowers. It would remind us that 
agencies need to be held accountable for waste and other forms 
of serious misconduct. And it would encourage employees to 
report serious wrongdoing without fear of reprisal.
    Thank you very much, and I look forward to your questions.
    Mr. Connolly. Thank you Mr. Colapinto.
    Ms. Hempowicz.

 STATEMENT OF ELIZABETH HEMPOWICZ, DIRECTOR OF PUBLIC POLICY, 
                PROJECT ON GOVERNMENT OVERSIGHT

    Ms. Hempowicz. Chairman Connolly and Ranking Member Jordan, 
thank you for inviting me to testify as part of this hearing on 
the importance of protecting whistleblowers. I'm Liz Hempowicz, 
director of public policy at the Project on Government 
Oversight.
    Whistleblowers play a crucial role in holding our 
government accountable, but the system is failing them. As 
Ranking Member Meadows has said, for those who blow the whistle 
retaliation is almost certain.
    While Congress has codified legal protections for 
whistleblowers, systemic failures often undermine those 
protections.
    To address these, POGO recommends that Congress allow 
whistleblowers to take their retaliation complaints directly to 
court; ensure that whistleblowers facing reprisal are entitled 
to interim relief while their cases are pending; ensure that 
whistleblowers in the intelligence community and Armed Forces 
have access to independent enforcement of their legal 
protections and rebalance the burden of proof standard applied 
to whistleblowers in the Armed Forces so they are on equal 
footing with civilians blowing the whistle; expand prohibited 
personnel practices under the Whistleblower Protection Act to 
include retaliatory investigations and security clearance 
action; and clarify that whistleblowers are entitled to 
anonymity and can enforce that right.
    As Mr. Colapinto just told you, Federal whistleblowers are 
still the only major sector of the work force that does not 
have the right to have their cases tried before a jury. Even 
contractors who have traditionally had weaker protections than 
their Federal employee counterparts have this statutory right. 
Congress should finally allow whistleblowers to bypass the 
cumbersome administrative process currently in place and take 
their retaliation complaints directly to court.
    Furthermore, whistleblowers in the Intelligence Community 
lack an independent mechanism to enforce their statutory 
protections entirely. The last level of review in an 
intelligence community whistleblower's case is a panel of three 
inspectors general whose decisions are merely recommendations 
that the head of the whistleblower's agency can disregard 
without consequence.
    Similarly, as Mr. Fine mentioned, the Secretary of Defense 
is the final decisionmaker when it comes to addressing 
retaliation against military whistleblowers. This system 
renders their protections all but meaningless.
    But it isn't just enforcement mechanisms that are failing. 
As Congress codifies additional prohibited actions of reprisal, 
those who retaliate against whistleblowers continue to adjust 
their approach to skirt accountability.
    Whistleblowers across the board are frequently subjected to 
retaliatory investigations which are used to harass 
whistleblowers and tie up resources unnecessarily. Congress 
should expand prohibited retaliation across all government 
sectors to include these spurious investigations.
    And if Congress truly wants to ensure that blowing the 
whistle is not a career-ending decision for Federal employees, 
it must also make retaliatory security clearance action, such 
as revoking someone's clearance, a violation of the 
Whistleblower Protection Act.
    Additionally, recent events have highlighted a troubling 
lack of clarity around whether whistleblowers have a legal 
right to anonymity. For example, The Washington Post is suing 
the Special Inspector General for Afghanistan Reconstruction to 
force the release of the identities of individuals who spoke to 
the watchdog about the war in Afghanistan.
    While IGs are obligated to maintain a whistleblower's 
confidentiality unless disclosure is unavoidable, IGs are not 
the only people in government who are in a position to out a 
whistleblower. For example, if a whistleblower raises concerns 
with their supervisor before formally filing a complaint, then 
that supervisor is in a position to out the whistleblower and 
the explicit prohibition in the IG Act does not apply. It is an 
open question whether the law currently covers outing a 
whistleblower as reprisal and that should be clarify.
    Maintaining anonymity is one of the best ways for 
whistleblowers to protect themselves from professional and 
personal retaliation. Indeed, both this committee's majority 
and minority websites promise to maintain the confidentiality 
of whistleblowers who disclose wrongdoing to the committee.
    Before I conclude, I want to take a moment to address two 
pieces of misinformation about whistleblowers that have been 
repeated with some frequency.
    Some have argued inaccurately that the recent Ukraine 
whistleblower improperly colluded with the House Intelligence 
Committee before making their disclosure and that the 
whistleblower's reported bias against the President undermined 
the disclosure.
    For intelligence community whistleblowers the consequences 
of not following the law to the letter can be dire. Not only 
would it negate their ability to benefit from whistleblower 
protection, but they might also find themselves facing criminal 
prosecution, as has happened repeatedly in the past.
    It is entirely appropriate for a whistleblower to ask the 
committee of jurisdiction for guidance on how to proceed in 
compliance with the law. Furthermore, even if the whistleblower 
had approached the committee to make a disclosure, that would 
not violate the law.
    Congress also made clear through legislation in 2012 that a 
whistleblower's motive could not be used as a reason to deny 
them legal protections for making a disclosure. That's because 
motive does not determine whether a whistleblower's disclosure 
is legitimate. Exposing a whistleblower serves no public 
benefit and instead undermines the public interest in providing 
strong safe channels for insiders to report wrongdoing.
    Whistleblowers and taxpayers alike deserve a system that 
makes it easy and safe for whistleblowers in any sector of 
government to report wrongdoing without putting their personal 
or professional well-being on the line, but we have a ways to 
go before that is the case.
    I look forward to your questions.
    Mr. Connolly. Thank you. Great timing.
    Mr. Rosenzweig.

STATEMENT OF PAUL ROSENZWEIG, RESIDENT SENIOR FELLOW, NATIONAL 
              SECURITY AND CYBERSECURITY, R STREET

    Mr. Rosenzweig. Chairman Connolly, Ranking Member Jordan, 
members of the subcommittee, I thank you for the invitation to 
appear before you today and present testimony.
    My name is Paul Rosenzweig, and I am a senior fellow at the 
R Street Institute. I'm also a principal and founder of Red 
Branch Consulting, a small consulting company, and a 
professorial lecturer in law at George Washington University.
    In addition to being a lecturer at George Washington, I am 
a former adjunct lecturer at the Medill School of Journalism at 
Northwestern University, where along with two colleagues I co-
edited a book, ``Whistleblowers, Leaks and the Media: The First 
Amendment and National Security,'' that was jointly published 
by Medill and the American Bar Association. That work, along 
with my experience in the national security field, brings me 
here today.
    Though I'm generally thought of as a conservative, my 
testimony today is, I hope, nonpartisan in nature, since I 
believe that the issue of whistleblower protections is one of 
enduring interest to both parties and indeed to all Americans.
    I'd summarize my testimony with the following four basic 
points.
    First, in American history whistleblowers are not an 
afterthought. Though they are not mentioned in the 
Constitution, this have a history that predates our Nation's 
founding. Much like the free press, whistleblowers are an 
essential safety valve of accountability and transparency that 
allows America to have an effective and empowered executive 
branch while maintaining control over it to prevent a descent 
into autocracy.
    Second, the existing structure of whistleblower protections 
is at least to some degree grounded in constitutional freedoms 
and the First Amendment.
    Beyond that, Congress' history of support for Federal 
whistleblowers is embodied in a series of laws, the most recent 
of which, the Whistleblower Protection Enhancement Act of 2012, 
confirmed Congress' longstanding view, dating back to before 
the Nation's founding, that providing whistleblowers with 
adequate protection and incentives to come forward serves 
American interests.
    Third, for that reason it is utterly unsurprising that 
whistleblower protections have always had bipartisan support, 
both in Congress and in the courts. Figures who hold views as 
diverse as Senator Charles Grassley and Justice Sonia Sotomayor 
have spoken eloquently about the value of whistleblowers.
    My own view, that of a longtime conservative attorney, is 
that whistleblowers serve a critical function in our structure 
of democratic accountability. In any system where the 
electorate is the ultimate arbiter, the value of transparency 
in executive action is of paramount importance.
    Fourth, finally, I offer a word about the idea of 
confidentiality and anonymity, a topic that I know is of some 
controversy today.
    I would hope that the temper of the moment would not 
undermine our well-grounded belief that whistleblower anonymity 
when asked for is a fundamentally positive value. All too 
frequently whistleblowers have faced retaliation for their 
actions.
    If we wish them to have a positive incentive to come 
forward--and I think we all agree that we do--then it is, in my 
view, essential to provide whistleblowers with the protection 
of anonymity when they wish it.
    All people respond to incentives and any wise system of law 
will recognize that.
    Thank you very much, and I look forward to answering your 
questions.
    Mr. Connolly. Thank you so much.
    Mr. Horowitz.

   STATEMENT OF MICHAEL E. HOROWITZ, INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Chairman Connolly, Ranking Member 
Jordan, members of the subcommittee. Thank you for inviting me 
to testify today.
    Information provided by whistleblowers plays a critical 
role in the ability of inspectors general to conduct 
nonpartisan independent oversight of Federal programs and 
operations.
    As DOJ inspector general and as chair of the Council of the 
Inspectors General on Integrity and Efficiency, or CIGIE, one 
of my highest priorities has been to educate Federal employees 
about the importance of whistleblowing and to ensure that those 
who blow the whistle are protected from retaliation or even the 
threat of retaliation.
    For example, in July 2019, as part of CIGIE's enhancement 
of Oversight.gov, CIGIE launched a new whistleblower protection 
page that provides informational resources to assist potential 
whistleblowers in determining where to make a protected 
disclosure or where to file a retaliation claim.
    Also in July of last year CIGIE issued a report, 
``Whistleblowing Works: How Inspectors General Respond to and 
Protect Whistleblowers,'' which illustrates the important 
contributions of whistleblowers to OIG efforts to root out 
waste, fraud, abuse, and misconduct, and to improve government 
programs. The report can be found on Oversight.gov.
    Additionally, CIGIE is actively complying with the 
Whistleblower Protection Coordination Act, which this committee 
and Congress passed in 2018, by helping to develop best 
practices for handling protected disclosures and enforcing 
whistleblower protection laws.
    Let me turn briefly to CIGIE's efforts to protect 
whistleblowers from retaliation.
    Whistleblowers perform an essential public service in 
ensuring accountability in government, and no one should be 
retaliated against or threatened with retaliation for bringing 
forward information that they reasonably believe evidences 
waste, fraud, abuse, or misconduct.
    This is not just a principle that IGs agree with, it's a 
principle enshrined in the law. On a bipartisan basis Congress 
has passed numerous laws to protect whistleblower 
confidentiality and prohibit retaliation against 
whistleblowers.
    For example, the IG Act expressly prohibits inspectors 
general from disclosing the identity of a whistleblower without 
their consent except in very limited circumstances. And the 
Whistleblower Protection Act of 1989 makes it unlawful for any 
government actor to retaliate or threaten to retaliate against 
a whistleblower who has brought a reasonable concern of 
misconduct forward.
    Since 1989, Congress has extended similar protections to 
Federal contractors and grantees, intelligence community 
employees and contractors, and military personnel.
    Under each of these laws inspectors general play a central 
role in receiving evidence of criminal or administrative 
wrongdoing because we have the independence and expertise to 
credibly assess the information and take appropriate steps to 
correct identified misconduct. And under every applicable anti-
retaliation law employees are specifically protected for 
disclosing information to an inspector general.
    When a whistleblower alleges retaliation for providing 
allegations of wrongdoing, inspectors general have the 
responsibility to conduct a thorough and independent assessment 
of the facts. OIG whistleblower investigations not only seek 
justice on behalf of whistleblowers, but also seek to deter 
potential future reprisals and to promote accountability for 
those who have retaliated or engaged in other misconduct.
    To effectively conduct such investigations, OIGs must have 
access to all relevant testimony and witnesses, including 
individuals who may resign or retire during the course of the 
OIG investigation. However, with the exception of the 
Department of Defense OIG, OIGs do not have the authority to 
compel testimony from former agency employees in whistleblower 
retaliation investigations or in other investigations.
    Our efforts to investigate whistleblower retaliation, 
promote accountability, and deter future misconduct have 
hampered our ability to receive testimony from former 
employees. To remedy this, CIGIE has identified testimonial 
subpoena authority as one of its primary legislative 
priorities, and this committee has worked in the past on a 
bipartisan basis with us to support such legislation.
    The IG community understands the potential concerns with 
granting such authority and therefore supports incorporating 
appropriate controls to ensure this authority is exercised 
properly.
    I look forward to working with this committee as we have in 
prior Congresses to advance this crucial measure that would 
both enhance whistleblower protection and independent 
oversight.
    Thank you, and I look forward to answering your questions.
    Mr. Connolly. Thank you, Mr. Horowitz.
    The chair now recognizes the distinguished chairwoman of 
the full committee, Mrs. Maloney, for five minutes.
    Mrs. Maloney. Thank you. I thank the distinguished Chairman 
Connolly for holding this important hearing today on 
whistleblower protections.
    Whistleblowers are vital to Congress' constitutional 
oversight responsibilities. They are often the first line of 
defense in fighting waste, fraud, and abuse. And without strong 
protections and the ability to remain anonymous, whistleblowers 
could face retaliation. This could, I believe it would chill 
their willingness to report abuses to us, and that would hurt 
our ability to fulfill our constitutional duties of oversight.
    Interfering with an employee's communications with Congress 
is already illegal, and so is retaliating against employees who 
engage in such communications. But as we have seen this past 
year, some of our leaders do not seem to value whistleblowers 
in the same way that we do.
    For these reasons, I am working with Chairman Connolly and 
several other colleagues on legislation to improve existing 
protections for whistleblowers even further.
    And now I want to move to questions.
    Ms. Hempowicz, as you know, it is well recognized that 
whistleblower disclosures are a vital asset in promoting 
government accountability and limiting waste, fraud, and abuse. 
Whistleblowers make disclosures at great risk to their careers, 
in some cases to their well-being and literally to their lives. 
And for this reason it is absolutely essential that the 
confidentiality of whistleblowers is protected. And without 
government assurance that a whistleblower can maintain being 
anonymous, a chilling effect may occur.
    So, can you tell us why you believe it's important that 
whistleblower confidentiality be protected? And do you think 
that they are sufficiently protected?
    Ms. Hempowicz. Thank you for that question, Chairwoman.
    Absolutely, I think anonymity should be guaranteed to 
whistleblowers that want it. I don't think every whistleblower 
wants to remain anonymous, but that should be their decision. I 
think not guaranteeing that right runs the risk of deterring 
would-be whistleblowers from coming forward, and that means 
waste, fraud, and abuse is not reported.
    So, I think to make sure that whistleblowers do come 
forward, every protection needs to be put into the law to make 
sure that they have an incentive to come forward.
    Mrs. Maloney. OK.
    Mr. Colapinto, do you believe that we have sufficient 
confidentiality now for protection or is there more that we can 
do or should do?
    Mr. Colapinto. There is a lot more that we could do.
    Mrs. Maloney. Such as?
    Mr. Colapinto. Well, for example, the whistleblower 
provisions of the Federal civil service laws can be amended in 
order to make it actionable so that employees can bring a 
complaint in the event that they are harassed or their 
confidentiality is breached.
    There should also be stiffer penalties and the Privacy Act 
can be enhanced to provide for civil remedies as well. I think 
that Congress should also look at stiffer penalties for 
managers and supervisors who may, in fact, breach the 
confidentiality.
    I have never seen arguments like we are seeing out there 
today where Congress passes very clear prohibitions for OSC and 
the inspectors general not to reveal the identity of 
whistleblowers when they come forward confidentially and 
somehow that has turned into, well, that only applies to them, 
so anybody else could breach the confidentiality. I think that 
there is a lot more that can be done to ensure that everyone 
gets the message that once a whistleblower goes confidential or 
anonymous they are not to be unmasked.
    Mrs. Maloney. OK.
    Also, Mr. Rosenzweig, would you followup? Do you believe 
there are currently weaknesses in it for Federal employee 
whistleblowers? And what more could we do to protect them?
    Mr. Rosenzweig. Well, as Mr. Colapinto said, Federal 
whistleblowers don't have a private cause of action against 
those who might disclose their identity. They have weakened 
protections within the workplace itself.
    But I think more to the point, the degradation in 
confidentiality and anonymity that we promise whistleblowers is 
eroding the ability of Federal employees who uncover waste, 
fraud, and abuse to transmit those allegations with the candor 
and forthrightness that we as citizens and you as Congress 
would wish to have. You must want, I think, to have a fulsome--
a full disclosure from anybody who has such information, and by 
threatening confidentiality you erode that.
    Mrs. Maloney. And my time has expired. I have a lot more 
questions. This is an important issue and it is one that is 
very relevant today.
    I yield back. Thank you.
    Mr. Connolly. I thank the distinguished chair.
    The chair recognizes Mr. Meadows, the ranking member of the 
subcommittee.
    Mr. Meadows. I thank the chairman. I'm going to yield my 
time to the gentleman from Kentucky, Mr. Massie.
    Mr. Connolly. Mr. Massie is recognized for his five 
minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    In March 2013 former Director of National Intelligence 
James Clapper spoke an untruth when he was asked by Senator 
Wyden if the government was collecting information on millions 
of Americans. Three months later, Edward Snowden leaked 
documents that showed that what James Clapper said was, indeed, 
not true. James Clapper later characterized his answer as the 
least untruthful thing that he could say.
    Later, people criticized Edward Snowden for not using 
whistleblower protections, but then this debate came about: 
about whether contractors were covered, because Edward Snowden 
was not an employee. I've gone back and looked at President 
Obama's policy directive of 2012 and it is silent on the issue 
of contractor and doesn't necessarily define employee.
    Mr. Horowitz, today, I know there have been some revisions 
and some changes and maybe some clarifications, today would a 
contractor like Edward Snowden be covered under the 
whistleblower protections if he wished to disclose the 
information that was in his possession that showed that James 
Clapper was not accurate in his answer?
    Mr. Horowitz. Well, it's my understanding that under the 
law as it currently exists that members of the intelligence 
community have the means by which in a whistleblower protection 
law specific to the intelligence community to make a report to 
the inspector general and, depending upon the circumstances, 
have that information----
    Mr. Massie. I hate to interrupt you, but members of the 
intelligence community, is that defined as contractors who work 
in the intelligence community? Does that include people like 
Edward Snowden?
    Mr. Horowitz. My understanding is that, yes, contractors 
can report such conduct to the IG over which agency they're 
working for as a contractor.
    Mr. Massie. Can they also come to this committee?
    Mr. Horowitz. I believe they then would have to follow the 
Intelligence Community Whistleblower Protection Act and 
provisions there.
    Mr. Massie. Are the rules different for them than 
employees?
    Mr. Horowitz. I don't believe so, but I would----
    Mr. Massie. Can an employee come to this committee?
    Mr. Horowitz. I'm sorry?
    Mr. Massie. Could an employee who wishes to be a 
whistleblower----
    Mr. Horowitz. They would have to go through the steps under 
the law. The Intelligence Community Whistleblower Protection 
Act provides the means by which that would occur.
    Mr. Massie. So, they couldn't come directly to this 
committee or another committee?
    Mr. Horowitz. The way Congress has set up the statutory 
scheme is that in the intelligence community--and this is, I 
believe, in section 8H of the IG Act now--employees go through 
their IGs, who make a finding.
    Mr. Massie. Employees, does that include contractors?
    Mr. Horowitz. I believe it does.
    Mr. Massie. You believe, but you're not sure and you are 
the IG
    Mr. Horowitz. I can certainly get back to you on it.
    Mr. Massie. OK. That's really important, because I think 
perspective whistleblowers are watching this hearing, and they 
want some clarity on this. I know we don't have--let me move 
on.
    Ms. Hempowicz. May I answer your question?
    Mr. Massie. Sure.
    Ms. Hempowicz. So, contractors are afforded the same 
whistleblower protections under law now that intelligence 
community employees have. And the law says that they can go to 
the congressional Intelligence Committees.
    Mr. Massie. OK. Great. I would feel more comfortable if the 
IGs knew that and could repeat that in a hearing here to us 
today.
    So, the process--what is the process? Let me back up.
    Does it cover former employees? Let's say somebody is fired 
and they want to be a whistleblower. Can they be a 
whistleblower after they're fired? Do they still qualify?
    Ms. Hempowicz. For the most part, yes, sir.
    Mr. Massie. OK. And so, what's the process they follow? 
Like a former employee that wants to be a whistleblower, Mr. 
Horowitz, what's the process they should follow?
    Mr. Horowitz. So, under 8H of the act they would take it to 
the inspector general for the agency that they were employed 
by. The inspector general makes a legal determination about the 
allegations. The allegation----
    Mr. Massie. OK. I've got 30 seconds, let me just finish 
this line of questioning. I'm sorry to interrupt you.
    So, what about leaking it to a newspaper reporter, would 
that work, without going to the IG?
    Mr. Horowitz. Leaking it to--if it's classified 
information, which is what we are usually talking about in 
intelligence, you cannot leak classified information to----
    Mr. Massie. Can you just leak other things? What if you 
leak it to an intermediary?
    Mr. Horowitz. Actually there is a Supreme Court case on 
this, McLean v. United States.
    Mr. Massie. OK. What if you leak it to an intermediary who 
leaks it to a reporter?
    Mr. Horowitz. It depends on----
    Mr. Massie. Let me ask you this. Did James Comey----
    Mr. Horowitz. Can I finish?
    Mr. Massie. Let me ask one last question.
    Mr. Horowitz. Can I finish my answer?
    Mr. Massie. Did James Comey follow the proper procedure for 
whistleblowers when he used an intermediary to leak to the 
newspaper?
    Mr. Connolly. In one second.
    Mr. Horowitz. So, let me answer the question before, which 
is----
    Mr. Massie. I'm most interested in the last question.
    Mr. Horowitz. I'll get to that in a minute.
    But so there is clarity here, because the FBI whistleblower 
laws are somewhat unique, because they have been carved out of 
the whistleblower laws----
    Mr. Massie. Can they leak to the newspaper?
    Mr. Connolly. No, no, no, no, no. The gentleman's time has 
expired.
    Mr. Horowitz. So, under the McLean case, which was a 
Supreme Court decision involving a then air marshal at the 
Department of Homeland Security, they attempted to fire or did 
fire that individual for disclosing information that they had 
not authorized an air marshal to disclose to a newspaper. The 
Supreme Court found that that was a violation of the law to 
fire him and that the employee was not prohibited from making 
the disclosure----
    Mr. Connolly. Thank you, Mr. Horowitz.
    Mr. Horowitz. So, let me just, if I could, getting back to 
the FBI, that is different, and as we laid out in our report 
about Mr. Comey's disclosure of the information to the 
newspapers, that was not consistent with the procedures of the 
FBI.
    Mr. Connolly. Thank you very much.
    Mr. Massie. Thank you, Mr. Chairman, for indulging me.
    Mr. Connolly. Thank you. And did you--all right.
    The chair now recognizes the gentleman from Maryland, Mr. 
Sarbanes, for five minutes.
    Mr. Sarbanes. Thank, Mr. Chairman.
    Thanks to the panel. Obviously a very, very important 
topic.
    I just wanted to make the point, first of all, I thank all 
of you who've pointed out that a whistleblower stepping 
forward, particularly when they are working inside our Federal 
Government and within agencies that have a particular mission, 
they are anything but a traitor and I think in so many ways a 
patriot, because in that context what they are stepping up to 
do is make sure that the mission of their agency is carried out 
in a way that meets the expectations of the taxpayers out 
there, American citizens, certainly Members of Congress. So, 
everything we can do to protect them I think obviously is 
critical.
    Mr. Colapinto, I want to ask you a question, based on 
actually testimony in Ms. Hempowicz's testimony, I think 
written, where she talks about--we all know this--that many 
lawmakers and the President in fact argued that the Ukraine 
whistleblower should not be afforded confidentiality or other 
whistleblower protections because the whistleblower conveyed 
information that was, quote, ``secondhand.''
    So, Mr. Colapinto, can you just talk for a moment, is 
secondhand information common from whistleblowers? Is that 
something that we see? Is that an important source of 
information?
    Mr. Colapinto. It's very common. And in fact earlier this 
month there was actually an article published in the Harvard 
Business Review about an academic study or a study in the field 
of whistleblowing which found that secondhand information in 
the corporate whistleblowing context is actually more important 
and it actually--it leads to more whistleblower disclosures by 
encouraging secondhand information.
    And secondhand information oftentimes is better than 
firsthand information because it leads to the early discovery 
of problems that aren't known. If you wait for the firsthand 
reporter, it may be far down--the misconduct may be far down 
the line, leading to a bigger problem.
    So, encouraging more whistleblowing, encouraging secondhand 
reporting----
    Mr. Sarbanes. It's sort of like an early--you're saying 
it's kind of like an early warning system.
    Mr. Colapinto. That's exactly what whistleblowers are, and 
that's what should be encourage.
    Mr. Sarbanes. Yes. But the secondhand information in 
particular may be able to play that role.
    In a December 2019 survey which the Government Business 
Council conducted of 691 Federal civilian employees, 34 percent 
answered, and I quote, ``The attacks on the whistleblower by 
President Trump and various congressional Republicans have made 
it much less or somewhat less likely that I will report an act 
of perceived wrongdoing to the appropriate authorities.''
    Mr. Rosenzweig, are you concerned about the impact of the 
rhetoric that we hear sometimes from some of our colleagues 
when they are referring to the whistleblower who alleged 
misconduct by the President?
    Mr. Rosenzweig. Well, sir, I went to the University of 
Chicago. They taught us that incentives are everything, that 
people are essentially rational actors who respond to external 
stimulus.
    If whistleblowers perceive a greater risk to their personal 
livelihoods, to their employment, to their personal safety they 
will be less likely to come forward. That is as sure as night 
follows day and rain follows the sun.
    So, yes, it is inevitable that adverse rhetoric that 
challenges the integrity of or the confidentiality of 
whistleblowers will have the second order effect of 
systematically decreasing the likelihood that whistleblowers 
will be willing to come forward. That's an iron law of human 
nature and of economics.
    Mr. Sarbanes. And it's not just the President's sort of 
undermined that perspective with respect to whistleblowers. I 
want to thank Mr. Horowitz and Mr. Fine and 65 other Federal 
IGs who sent a letter to the assistant attorney general, Steven 
Engel, writing that you had concerns that the Office of Legal 
Counsel's opinion would have a chilling effect on employees, 
contractors, and grantees.
    And that's an important thing to put in the record. I'd ask 
that we do that, unanimous consent to place that letter into 
the record.
    Mr. Connolly. Without objection.
    Mr. Sarbanes. The last thing I'd just like to ask, and any 
of you can volunteer an answer here, is as we've been 
discussing it I've been thinking to myself we have these 
statutes, obviously they're incredibly important, but creating 
a culture inside of the government, inside of these agencies 
among supervisors, others who are going to be in a position to 
receive a whistleblower complaint that says this is an 
appropriate action for you to take and we are here to protect 
you. In other words, a culture that says that this is something 
that's important to do and ought to be respected.
    What kind of training or other things happen, and could 
there be more, to make sure that that culture, that positive 
reinforcing culture exists? Anybody who wants to respond could.
    Mr. Fine. If I could respond. That is a key, to make sure 
that we are training, educating employees and supervisors about 
their rights and responsibilities with regard to whistleblowers 
and not to treat whistleblowers as traitors or anything like 
that, but that they provide valuable information.
    Not all of it is supported. Sometimes they don't know all 
the facts. But they should be encouraged to provide that 
information and we need to investigate it fully, fairly, and 
take each complaint seriously.
    And what is important, too, as I point out in my testimony, 
is when we do substantiate cases of retaliation or reprisal 
that management takes appropriate action. And that sends a 
message that reprisal will not be tolerated and that 
disclosures are valued. And if they do not do that in a timely 
way, in a full way, in a fair way, it sends the opposite 
message. So, that is very important as well.
    Mr. Connolly. Thank you, Mr. Fine. The gentleman's time has 
expired.
    The chair recognizes the gentleman from Georgia, Mr. Hice, 
for his five minutes.
    Mr. Hice. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Thank each of our panelists for being here.
    Important discussion about whistleblowers, and, tragically, 
I believe, we're watching the protection of whistleblowers 
these days become very much twisted in politics. This is 
something I hear constantly in my district, the concern that 
certain actors within our political system at this particular 
point in time, have especially the whistleblower statutes to 
attack the President. And case in point, while we're right here 
today right now, across the way in the Senate, they are 
litigating a baseless impeachment case that all started with 
the whistleblower.
    Of course, there's been a lot of media attention added to 
the drama, but there's still a lot of questions that are 
surrounding the spark that got this whole thing started. Now 
here's what we do know. There's a lot we don't know, but here's 
what we do know: On August 12th, 2019, an anonymous individual 
filed a complaint with the inspector general of the intel 
community against the President. We know that. We also know 
that the individual admitted to having no actual firsthand 
knowledge of the events described in their complaint. Instead, 
they relied on rumors, secondhand information, and public news 
clippings. We know that. We also know that press reports have 
said that this individual admitted to having a close 
relationship with former Vice President and current 
Presidential candidate Joe Biden. We know that this individual 
was in secret communication with House Intel Chairman Adam 
Schiff and/or his staff.
    So, to this day, as far as I know, Chairman Schiff is the 
only person who knows the identity of this particular 
whistleblower. Those are some things we know. There's a lot of 
things we don't know. A lot of questions we have, like not only 
the identity of the whistleblower but whether anonymity is 
actually protected in this case. Does this individual, in fact, 
warrant whistleblower status? That's a legitimate question in 
this particular situation. The extent of the individual's 
political bias and to what degree this individual coordinated 
with Chairman Schiff and/or his staff.
    Now all this stuff eventually is going to come out. In this 
city, of course, it always does. There will eventually be a day 
of reckoning, but, Mr. Horowitz, I realize that the intel 
community is not within your jurisdiction--I get that--but you 
have vast experience, and so, based on your experience overall, 
have you ever seen a case similar to this where there is an 
anonymous complaint with no firsthand information against the 
President by an individual as having communications with the 
staff of the other political party?
    Mr. Horowitz. I'm not aware of a case other than this one 
personally on those facts, but just to be clear, we get 
anonymous complaints all the time on our----
    Mr. Hice. Yes, but this one, in particular, like this, and 
I want to keep going because----
    Mr. Horowitz. I don't have any particular knowledge.
    Mr. Hice. OK. I didn't think you would. Again, relying on 
your experience, are you familiar with any Federal law that 
would grant anonymity to this individual given the 
circumstances here?
    Mr. Horowitz. The IG Act requires us as IGs to protect the 
identity of individuals who come to us absent very limited 
circumstances. So, anybody who comes to an IG, we're going to 
be in a situation protecting the identity.
    Mr. Hice. OK. It's my understanding that the IG, the intel 
IG, is to protect the--not to disclose the identity, but I'm 
not familiar with any statute that would guarantee that.
    Mr. Horowitz. The IG Act doesn't have 100 percent guarantee 
in it.
    Mr. Hice. OK.
    Mr. Horowitz. It has a limited exception in there. For 
example, we face this when there's a court order and a subpoena 
of some sort that would require someone to testify in court. 
That would then be up to a judge to decide how to proceed.
    Mr. Hice. Mr. Chairman, I would ask unanimous consent to 
put into the record an article from The Washington Post that 
deals with this whole issue.
    Mr. Connolly. Without objection.
    Mr. Hice. Thank you.
    Mr. Connolly. I thank the gentleman.
    The chair now recognizes the gentlelady from California for 
her five minutes, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    And thank you all for being here. At the outset, I would 
like to submit an open letter to the American people signed by 
former inspectors general who are interested in making sure 
that all Americans can be guaranteed safety, and that's what 
whistleblowers provide.
    Mr. Connolly. Without objection, it will entered into the 
record.
    Ms. Speier. Thank you.
    The inspector general of the intelligence community 
testified before the Intelligence Committee that he had 
investigated the complaint, found it to be credible and urgent. 
That was then sent to the Director of National Intelligence who 
decided not to do what the law requires, which is to 
automatically send it to the committees of jurisdiction, the 
Intelligence Committees of both Houses, but to tell the White 
House. So, I guess my question to any one of you is, what do we 
have to do within that particular law to make sure that the 
Intelligence Committees get access to complaints that are filed 
that are deemed to be both urgent and credible?
    Ms. Hempowicz. I can take this question. I think it's 
important to remove some of those steps in between. So, I think 
it should be possible for the inspector general of the 
intelligence community to transmit those credible complaints of 
urgent concern directly to the committees of jurisdiction 
rather than go through the Director of National Intelligence 
for starters.
    Ms. Speier. So, historically, they always have been sent to 
the committees, even when they weren't found to be credible or 
urgent. So, this was a divergence that took place that, 
frankly, smacks of political interests, does it not? You don't 
have to answer that.
    Mr. Fine, you note in your written statement that there's a 
small but disturbing trend and called to account DOD managers 
that have failed to take action even after your office has 
substantiated claims of reprisal having taken place. I'm 
disheartened to hear about the results of the Leidos case in 
which a subcontractor employee reported about sexual 
harassment; your office provided an investigative report 
recommending compensatory damages; and the Under Secretary of 
Defense for Acquisition and Sustainment disagreed without real 
explanation.
    Why do we spend taxpayer money empowering you to do 
investigations to substantiate complaints, you make 
recommendations, and then the agency can decline to move 
forward with the investigation and the results that you have 
come up with?
    Mr. Fine. Well, that's the scheme that--that's the 
legislation that has been created that we are not the final 
arbiters of that. We're the investigators. We did do a full 
investigation. We provided the reasons why, a detailed analysis 
about why we thought it was substantiated. It took us a long 
time to get a response from the Department. When we did get a 
response, it was not very detailed or thorough or persuasive. 
We pushed back, and eventually we got the ultimate decision by 
the Under Secretary. We then came to Congress and notified you 
of that because the power that we have is the power of the 
spotlight. We shine a spotlight on this, and we do think it is 
important that the components--the agencies take action. We're 
not infallible. We're not always right, but we try to explain 
why we reached our conclusions, and we think the Department 
ought to do the same thing and take appropriate action.
    It is a disturbing trend. I point out in my testimony that 
there are at least two other cases where the same thing 
happened. They declined to take action in a substantiated case 
without providing detailed or persuasive reasons why. That is a 
disturbing trend, and we think that a spotlight ought to be 
shined on that and questions ought to be asked about that.
    Ms. Speier. Well, beyond a spotlight, what would you 
recommend? Maybe you should take this as a request that you can 
respond to the full committee.
    What kind of changes would you like to see in the law so 
that this discretion isn't such that the facts that are 
verified and your recommendations are made and people are 
denied justice?
    Mr. Fine. Well, the Senate Armed Service Committee in the 
NDAA, a conference report to the NDAA, required that both we 
and the IG for the Department of Homeland Security put in our 
semi-annual reports any time that that happens or that the 
Department has not responded in a timely way. So, I think 
transparency is an important thing. I don't think we ought to 
be the final arbiters; we're not judge and jury. But we ought 
to provide transparency on when this happens, and then people 
ought to be asked about this. I mean, hearings are good, 
questions are good, and I think that can have a positive impact 
as well.
    Mr. Connolly. Thank you, Mr. Fine.
    The gentlelady's time has expired.
    The chair now recognizes the gentleman from Kentucky for 
his five minutes of questioning.
    Mr. Massie. Thank you, Mr. Chairman.
    Because I used Mr. Meadows' time, I'm going to yield to my 
five minutes to Mr. Jordan.
    Mr. Connolly. Mr. Jordan is recognized for five minutes.
    Mr. Jordan. I thank the gentleman for yielding.
    I thank the chairman.
    Ms. Hempowicz, in your closing statement--closing part of 
your opening statement, you said: Some have argued inaccurately 
that the recent Ukraine whistleblower improperly colluded with 
the House Intelligence Committee.
    ``Some have argued inaccurately.'' How do you know that the 
argument's not accurate?
    Ms. Hempowicz. Well, I based that simply on what's been 
said by the Acting Director of National Intelligence and the 
intelligence community inspector general as well as the 
whistleblower's attorneys who say that this individual is----
    Mr. Jordan. You have no knowledge--you didn't talk to 
Chairman Schiff, have you talked to Chairman Schiff about it?
    Ms. Hempowicz. No, sir.
    Mr. Jordan. Did you talk to his staff about the interaction 
they had with the whistleblower?
    Ms. Hempowicz. No, sir.
    Mr. Jordan. Did you talk to the ICIG about the interaction 
he had with the whistleblower?
    Ms. Hempowicz. No, sir, but I will say the committee staff 
did also say that they have talked publicly about----
    Mr. Jordan. Well, you made a blanket statement. You said: 
Some have argued inaccurately.
    We have no idea what took place between the whistleblower 
and Chairman Schiff's staff, and yet you come in front of the 
Oversight Committee on a hearing on whistleblowers, and you 
say: Some have argued inaccurately that the recent Ukraine 
whistleblower improperly colluded with the House Intelligence 
Community.
    We have no idea.
    Ms. Hempowicz. Well, sir, I'm not quite sure what improper 
collusion would look like in that aspect because the 
intelligence community whistleblower would be able to go to the 
committee and make their disclosure under the law. So, I'm not 
quite sure----
    Mr. Jordan. But----
    Ms. Hempowicz [continuing]. What they could've done that 
would have been improper.
    Mr. Jordan. Well, we know the chairman thought that, when 
he was first asked about it, he thought it was better off to 
say something that wasn't accurate--namely, that his staff had 
no contact with the whistleblower--only to have to correct that 
a few days later and say: Whoops, we actually did.
    So, for some reason, he was willing to hide it, and yet you 
come here and say there was nothing done improperly. And you've 
not talked to any of the people who participated, and, frankly, 
none of us have. No one in the country has.
    And I've got a chance to look at a little bit of the ICIG's 
testimony. It's interesting that Chairman Schiff has failed to 
release the inspector general of the intelligence community's 
testimony. He did have a chance to go through and look at all 
this, but, you know, Chairman Schiff interviewed 18 people; 
he's released 17 transcripts of those 18 people that he 
interviewed in this impeachment inquiry but not the inspector 
general.
    You go on to say this: Before making their disclosure and 
that, the quote, "whistleblower reported bias against the 
President" undermined the disclosure.
    So, bias doesn't matter?
    Ms. Hempowicz. According to Congress, no. You guys updated 
the law in 2012 to say that motive couldn't be considered a 
factor that would undermine whistleblower protection because 
the facts matter more.
    Mr. Jordan. As far as whistleblower protection goes, I get 
that, but motive always matters. When you're evaluating the 
claim of anybody, you always have to look at bias and motive. 
And yet, again, you come in front of the Oversight Committee 
today on a hearing about whistleblowers, and you say bias 
doesn't matter, particularly bias against the President of the 
United States in an impeachment proceeding doesn't matter?
    Ms. Hempowicz. It certainly doesn't matter more than the 
facts, and I believe that most of the facts alleged in the 
underlying complaint have been corroborated.
    Mr. Jordan. Actually, there are all kinds of things that 
the whistleblower got wrong in the complaint because, again, as 
Mr. Hice pointed out, the whistleblower had no firsthand 
knowledge. Do you know, Ms. Hempowicz--you seem to be an expert 
on all this--do you know if we ever in the impeachment inquiry 
in the House, do you know if we talked to any of the people who 
did have firsthand knowledge?
    Ms. Hempowicz. I think you have not, and I think mostly 
because they have refused to come before the committee.
    Mr. Jordan. No. I'm talking about the people the 
whistleblower alleges in his complaint. Bullet point No. 1 of 
the whistleblower's complaint, he says this: Over the past four 
months, more than half a dozen U.S. officials have informed me 
about the complaint.
    Do you know who those more than half a dozen U.S. officials 
are?
    Ms. Hempowicz. No, sir.
    Mr. Jordan. I don't either. No one knows because, guess 
what? We didn't get to talk to the whistleblower. The 
whistleblower, who is biased, and the whistleblower, who met 
with Adam Schiff's staff and then Adam Schiff said, ``No, he 
didn't,'' only later to have to correct that and say, ``Well, 
yes, he did.''
    And remember what else Mr. Schiff said about the 
whistleblower. Early on in this process back in September, 
guess what Adam Schiff said? ``We look forward to hearing from 
the whistleblower.'' Remember that?
    Ms. Hempowicz. I believe that's when the whistleblower 
wanted to testify publicly.
    Mr. Jordan. That's when we all wanted to hear from the 
whistleblower, including Adam Schiff, but suddenly that changed 
when Adam Schiff made the other statement that they hadn't 
talked to--that his staff had not met with him when in fact, 
they had. I just find it amazing that you can say, ``Some have 
argued inaccurately that the recent whistleblower improperly 
colluded with House Intelligence Committee,'' and you have no 
knowledge whether it was accurate or not, whether they colluded 
or not. Sure looks like they did, particularly in light of the 
fact that the chairman tried to hide the fact that they met in 
the first place.
    Ms. Hempowicz. Again, I'm just not quite sure what could be 
improper about those conversations, and so it's difficult for 
me to imagine what could have gone on, but I can't speak to why 
Chairman Schiff said what he said. Like I said earlier, I have 
not spoken with him.
    Mr. Jordan. I thank the chairman. I yield back.
    Mr. Connolly. Thank you, Mr. Jordan.
    The chair now recognizes the gentleman from Maryland, Mr. 
Raskin, for five minutes.
    Mr. Raskin. Mr. Chairman, thank you very much, and I want 
to thank you and all of our colleagues for your indulgence. I'm 
chairing another hearing right now, and so let me proceed 
quickly.
    Ms. Hempowicz, let me come quickly to you because you're 
with the Project on Government Oversight, which represents 
whistleblowers who are blowing the whistle on waste and fraud 
and abuse, governmental corruption, waste of the taxpayers' 
money. Is that right?
    Ms. Hempowicz. We advocate for whistleblowers; we don't 
represent them.
    Mr. Raskin. You advocate for them?
    Ms. Hempowicz. But we advocate for them.
    Mr. Raskin. OK. So, in other words, you would not represent 
them in court, but you advocate for their interests----
    Ms. Hempowicz. Yes, sir.
    Mr. Raskin [continuing]. And to protect them. Why do people 
get so mad about whistleblowers? Why are people so upset about 
whistleblowers?
    Ms. Hempowicz. I'm not quite sure, honestly. I think 
whistleblowers are patriots who are doing what all Federal 
employees take an oath to do, which is to uphold the laws of 
our country and whistleblowers come forward when they see that 
those laws, rules, and regulations are not being upheld. So, I 
don't know how to answer your question, but I'm probably not 
the right person to ask that.
    Mr. Raskin. Well, we have had to legislate to protect 
whistleblowers in the past because they often irritate people. 
People get mad at them. They're powerful interests that come 
down hard on them.
    Mr. Colapinto, let me ask you, what's going on when people 
get incensed and irate about whistleblowers?
    Mr. Colapinto. ``Nobody likes a rat.'' That was the name of 
a title of another academic study that created a whistleblowing 
game. And what they found out was that, even amongst people who 
were honest in a group, once the whistleblower's identity 
became known that they had blown the whistle, the members of 
the honest group shunned that person. It is part of human 
nature that, if your integrity or your ethics are attacked or 
your political position is attacked, people will circle the 
wagons, and they will strike out and create intimidation. And 
that's what happens with whistleblowers.
    Mr. Raskin. No, that's fascinating. You're telling me, as a 
matter of social psychology and empirical documentation, you're 
saying that, even when a whistleblower comes forward to tell 
the truth and the revelations and the disclosures are proven to 
be true and, say, they saved the government millions of dollars 
or they blow the whistle on a criminal scheme or corruption, 
still people are mad at them for what they did?
    Mr. Colapinto. Yes, because what is going on is a person is 
raising an issue of importance that may impinge on budgets; it 
may embarrass the department; and people don't want to be 
associated with that because whistleblowing is known to be a 
stigma and is career-limiting.
    Mr. Raskin. OK. So, why is it that, in the strong 
democracies on Earth, we've adopted whistleblower protections? 
What is the social function played by protections of the 
whistleblowers?
    Mr. Colapinto. Because we want to save taxpayers' money. We 
want government to be efficient. We want to combat government 
waste. We want to combat fraud, and in the final analysis, 
nobody really wants to work for a crook or to have a government 
that's inefficient and wastes taxpayer money.
    Mr. Raskin. What are the major gaps that still exist in 
Federal statutory protections for whistleblowers now? If you 
could write a new statute to fill it in, what are the major 
areas that you would target?
    Mr. Colapinto. Well, there are three things, as I mentioned 
in my opening statement, was that, you know, I would recommend 
and suggest increasing confidentiality to allow people to bring 
an action if their confidentiality or privacy is breached after 
they were guaranteed confidentiality under the statute.
    The second thing----
    Mr. Raskin. Let me pause you right there because there's a 
big attack on confidentiality of whistleblowers right now, 
saying, ``We want to out the whistleblowers. We want to hold 
them up to the light,'' and so on.
    Explain why whistleblowers should have confidentiality and 
how that doesn't endanger anybody else's due process?
    Mr. Colapinto. Because what it does is that it provides a 
safe channel. Any organization, whether it's a corporation or 
the government in a large department, should be encouraging 
whistleblowing. It makes them more effective. It makes them 
more efficient. And by making it confidential, you eliminate 
that stigma hopefully, unless the person has gone internal 
first and is widely known or is fingerprinted.
    Mr. Raskin. Well, why would somebody want to maintain their 
confidentiality if they're blowing the whistle on corporate 
corruption or child sexual abuse or someone stealing money?
    Mr. Colapinto. Because the track record has shown that 
people lose their careers.
    Mr. Connolly. Thank you, Mr. Colapinto.
    The gentleman's time has expired, but I thank him for 
coming from his hearing to this important hearing.
    The other gentleman from Kentucky, Mr. Comer, is recognized 
for five minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    I think we all know by now the FBI doctored an email to get 
a FISA warrant in order to spy on the Trump campaign and that's 
what I want to address.
    Mr. Horowitz, last month, in an exchange with Senator Lee, 
you testified you couldn't rule out political bias contributing 
to surveilling Trump campaign associates. You testified, and I 
quote, "We were not in a position with the evidence we had to 
make that conclusion, but I am not ruling it out," unquote.
    I want to go over a few of those biased messages this FBI 
lawyer texted when candidate Trump was elected right after the 
election. Quote,"I'm so stressed out--I'm so stressed about 
what I could've done differently.
    Next quote, "I just can't imagine the systematic 
disassembly of the progress we made over the last eight years."
    Next quote, "The crazies finally won."
    Next quote, "This is the tea party on steroids."
    Next quote, "The GOP is going to be lost. They have to deal 
with an incumbent in four years."
    Next quote,"We have to fight this, again."
    And the last quote from the lawyer with the FBI, quote, 
"Pence is stupid."
    Now, he also texted someone else, "Viva la resistance. Of 
course, that's French for `long live the resistance'.'' He 
texted that a few weeks after Donald Trump was elected 
President. Is that correct?
    Mr. Horowitz. That's correct.
    Mr. Comer. Are you aware if this FBI lawyer interviewed 
another Trump campaign associate, not just Carter Page?
    Mr. Horowitz. As I sit here, I don't recall that person 
interviewing.
    Mr. Comer. This lawyer also interviewed George 
Papadopoulos. Now, are you reviewing other legislative steps 
this lawyer's taken?
    Mr. Horowitz. So, the FISA court issued an order ordering 
the Department to do that. We're obviously following up on our 
report and are watching their responses, both to the court and 
to us.
    Mr. Comer. Do you know if attorney John Durham is looking 
into this FBI lawyer?
    Mr. Horowitz. I have a general understanding of what Mr. 
Durham's working on, but I would direct you to him.
    Mr. Comer. So, did you speak with John Durham about this 
FBI lawyer?
    Mr. Horowitz. We referred the matter to the attorney 
general per the IG Act for his handling.
    Mr. Comer. So, tell me, can you tell us anything you two 
discussed even if it's in general terms?
    Mr. Horowitz. I'm not going to get into discussions that I 
had with Mr. Durham. We had some general discussions along the 
way about the substance of our report, about generally his 
work, but I'd ask you to go to him to inquire about any 
referrals that he may be handling.
    Mr. Comer. OK.
    Inspector General, you testified last month this FBI lawyer 
doctored an email to support a probable cause against Trump's 
campaign associate Carter Page. You also testified Carter Page, 
the Trump campaign associate, and I quote, "I do not think the 
Department of Justice fairly treated these FISAs, and he--
referring to Carter Page I believe--was on the receiving end," 
end quote.
    Is that correct?
    Mr. Horowitz. That I recall generally that testimony, yes.
    Mr. Comer. If you were a target of a FISA warrant after 
everything you uncovered, if you were a target, would you trust 
the team the FBI assembled in the Carter Page investigation? 
Would you trust that you would be given a fair shake?
    Mr. Horowitz. I hope I wasn't the target of the FISA.
    Mr. Comer. Don't we all.
    Mr. Horowitz. Certainly this team that handled this FISA 
did not do what they were supposed to do. The rules were clear. 
They didn't follow the rules, and so I think it's appropriate 
what the court is looking at here to see what other matters 
they worked on.
    Mr. Comer. Well, thank you very much, Mr. Horowitz.
    And, Mr. Chairman, I yield back.
    Mr. Connolly. I thank the gentleman.
    The chair now recognizes the gentlelady from the District 
of Columbia, Ms. Norton, for five minutes.
    Ms. Norton. Mr. Chairman, I want to thank you for this 
timely hearing on whistleblowers.
    I do want to note that the ranking member of the full 
committee spoke of the bias of the whistleblower even though 
ultimately witnesses came forward and essentially proved that 
what the whistleblower had alleged about concerning the 
President was true. So, I don't understand that any bias was 
ever founded. The opposite seems to have been found.
    I'm interested in the roles of the multiple whistleblowers. 
The whistleblower can apparently speak to inspector general, 
speak to the Office of Special Counsel, to the Merit Systems 
Protection Board, and when I see a scenario where there could 
be some confusion as to where to go, Mr. Horowitz, is there any 
role for the Office of Inspector General in overseeing the 
whistleblower investigations reported to the IG offices?
    Mr. Horowitz. I'm sorry. Could you just say that, again, 
Congresswoman?
    Ms. Norton. Given the multiple places that a whistleblower 
can go to, I'm asking is there any role for your office, the 
Office of Inspector General, in overseeing the whistleblower 
investigations reported to various IG offices?
    Mr. Horowitz. So, as chair of the council of IGs, what we 
have tried to do is couple things. One, set up the 
whistleblower page I mentioned earlier on Oversight.gov that 
provides information on where whistleblowers can go because it 
can be, as you said, confusing where to report it. We also 
formed a working group in 2015 shortly after I became chair. 
So, we are getting together regularly with all of the 
whistleblower protection coordinators in the IG community to 
share best practices and so that we can talk with one another 
about what we're each finding, challenges from our agency, 
challenges within our work.
    Ms. Norton. I just wish if you found your way to anybody, 
that would be regarded as done so that the jurisdictional 
questions wouldn't matter; the point is to encourage 
whistleblowing.
    Mr. Fine, I have here a report of the GAO. I want to quote 
from just a sentence, "The General Accounting Office found that 
the Office of Management and Budget withheld from obligation 
funds appropriated to the Department of Defense for security 
assistance to Ukraine." What is the role of the Department of 
Defense inspector general in investigating such a withholding?
    Mr. Fine. So, that relates to the whole Ukrainian matter, 
and we were asked by several Senators to get involved, and what 
we--we discussed it with our colleagues at Justice and the 
State Department and decided that, in light of the inquiry by 
the House and the impeachment inquiry and even the trial by the 
Senate, it would not be appropriate for the IGs to, at this 
point, investigate those matters because it would overlap, 
duplicate, and potentially interfere with that very important 
inquiry. We have an obligation to make sure that we do not do 
that.
    Ms. Norton. Overlap with what? Interfere with what?
    Mr. Fine. There are similar witnesses, potentially similar 
witnesses, and we do not want to be interviewing witnesses that 
perhaps the House wanted to interview or that potentially could 
be part of the trial. It's the same principle we apply when 
there's a criminal case ongoing. We would not open an 
investigation and interfere with that and would defer to that.
    Now, I know the impeachment is not a criminal matter, but 
it is not a usual congressional inquiry. So, we responded to 
the Senators saying we declined to open an investigation at 
this time, but down the road, if there's things that needed to 
be reviewed, we would consider it at that point.
    Ms. Norton. I should certainly hope that, at some point, 
when this matter is straightened out, we could learn whether 
the IG at the Department of Defense had a role and what that 
role should be or should have been.
    I'm interested in enforcement. What good is the law if 
there isn't any enforcement? And I understand that enforcement 
lies with Merit System Protection Board. Now they don't have a 
quorum, and it looks like they haven't had a quorum for a 
while.
    Ms. Hempowicz, what happens when Federal employees do not 
have access to the MSPB or to any enforcement mechanism?
    Ms. Hempowicz. Unfortunately, what happens is they're in 
administrative bureaucratic limbo.
    Ms. Norton. How long has it been that MSPB has not had a 
quorum?
    Ms. Hempowicz. Three years. Almost three years.
    Ms. Norton. So, there's been no enforcement whatsoever?
    Ms. Hempowicz. No, ma'am. There's a case backlog of 2,500 
cases right now.
    Ms. Norton. I don't know if there's anything we can do, Mr. 
Chairman.
    Mr. Connolly. Well, as I indicated earlier, as you know, 
Ms. Norton, Mr. Cummings, the late Mr. Cummings, and I have a 
bill that would at least allow some administrative action by 
the attorney until there's a board member confirmed so that we 
eat into that backlog and we protect whistleblowers. That bill 
passed this committee unanimously on a voice vote, and we're 
waiting for some floor action. So, any help you can provide 
with your influence would be great.
    Ms. Hempowicz. Can I make one suggestion?
    Ms. Norton. Yes, please.
    Ms. Hempowicz. I think, even beyond restoring the quorum to 
the MSPB, it's really--it's vital to give whistleblowers the 
right to go to a jury trial, and I think that would also help 
reduce that backlog.
    Mr. Connolly. We heard that from your testimony.
    Ms. Norton. I was going to ask you about the jury trial. 
Thank you very much.
    Mr. Connolly. Thank you.
    The gentleman from Massachusetts, Mr. Lynch, is recognized.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank all----
    Mr. Connolly. You get five more minutes?
    Mr. Jordan. Yep.
    Mr. Connolly. Please forgive me, Mr. Lynch.
    Mr. Lynch. I will yield.
    Mr. Connolly. I thought Mr. Jordan had used his five 
minutes.
    Mr. Kelly, as soon as we're finished, we'll come to you. 
Thank you, Mr. Jordan.
    Mr. Jordan. I thank the chairman.
    Mr. Horowitz, was Carter Page an operational contact for 
another Federal agency?
    Mr. Horowitz. He was.
    Mr. Jordan. Did the Department of Justice tell that--did 
the Department of Justice and the FBI tell that to the FISA 
court when they went to get the FISA application on Mr. Page?
    Mr. Horowitz. They did not.
    Mr. Jordan. They did not. Did an FBI lawyer doctor an email 
that was part of the FISA application to get this warrant on 
Carter Page?
    Mr. Horowitz. Doctored an email THAT went to the affiant 
who swore out the FISA application. The email itself wasn't 
part of the application.
    Mr. Jordan. Understand. And the way it was doctored was not 
just doctored, they directly changed it. It said it went from 
Carter Page--was a source to Carter Page was not a source. Is 
that right?
    Mr. Horowitz. Correct.
    Mr. Jordan. Directly the opposite meaning and that became 
part of the basis to go to the court and get the warrant on 
Carter Page.
    Mr. Horowitz. That was relied upon by the FBI agent who 
swore out the----
    Mr. Jordan. I've seen correspondence between Christopher 
Steele, the guy who wrote the dossier that was taken to the 
court, correspondence between him at the Department of Justice 
where he indicated to them that--to the Department of Justice--
that he was desperate to stop Trump from becoming President. 
Did that get communicated to the FISA court when they were 
getting the warrant to spy on Carter Page?
    Mr. Horowitz. It did not. He relayed that to Bruce Ohr, who 
relayed it to the FBI.
    Mr. Jordan. Yep. I also know that the Clinton campaign paid 
the law firm Perkins Coie, who hired Fusion GPS, who hired Mr. 
Steele, who actually put together the dossier as we just said. 
Did the fact that the Clinton campaign was paying for this 
operation, this dossier, did that get communicated to the FISA 
court?
    Mr. Horowitz. That information did not.
    Mr. Jordan. Did not get communicated to the FISA court. How 
many false or misleading communications were made to the FISA 
court relative to the Carter Page warrant?
    Mr. Horowitz. We identified 17 significant omissions or 
inaccuracies in the report. That's not all of them. That's the 
17 we thought were the most material.
    Mr. Jordan. So, more than 17 times they misled the court?
    Mr. Horowitz. We--we identified a bunch of instances of 
inaccuracies. I think I'd leave it to others to decide and the 
court to decide what was misleading or not.
    Mr. Jordan. January 29, 2018, two years ago, chairman of 
the House Intel Committee, Chairman Schiff, said, that the FBI 
and DOJ officials did not abuse the FISA process. Is that an 
accurate statement, Mr. Horowitz?
    Mr. Horowitz. Well, the Department has submitted a letter 
to the court now that has been made public where the Department 
has determined that the last two FISAs at a minimum did not 
have and did not support probable cause.
    Mr. Jordan. Mr. Schiff also said, on January 29, 2018, that 
the DOJ and FBI, quote, "made only narrow use of information 
from Christopher Steele's sources about Carter Page's specific 
activities in 2016." Is that accurate?
    Mr. Horowitz. I don't know the specific wording of what was 
said there, but as we reported, we found that the dossier that 
the Steele reporting was central and essential to the 
application for the initial FISA and to the subsequent FISA.
    Mr. Jordan. I think you said, on December 11th, in front of 
the Senate that FBI's FISA applications relied entirely on 
Steele's and his primary subsource reporting to make 
allegations against Mr. Page.
    Mr. Horowitz. Just to add, it was--to be precise, for the 
purpose of connecting Carter Page--alleged activities Carter 
Page's alleged activities to Russia to the Trump campaign. 
There were--there was other information in there concerning Mr. 
Page not connected to the Trump campaign.
    Mr. Jordan. Did the FBI corroborate the allegations against 
Mr. Page?
    Mr. Horowitz. The allegations in the FISA about his 
purported serving as an intermediary between Russia and the 
Trump campaign, they did not substantiate.
    Mr. Jordan. So, again, two years ago, on January 29, 2018, 
when Adam Schiff said the Department of Justice provided 
additional information obtained through multiple independent 
sources that corroborated Steele's reporting, that would be 
inaccurate as well?
    Mr. Horowitz. As we noted in the report, they provided some 
information, mostly from public sourcing, that they found 
corroborated the reporting, what they did not find was 
corroboration for the allegations connecting Mr. Page to Russia 
to the Trump campaign.
    Mr. Jordan. Finally, let me ask this, also two years ago, 
Mr. Schiff said on -- the Department of Justice met the rigor, 
transparency, and evidentiary basis needed to meet FISA's 
probable cause requirement.
    Is that an accurate statement?
    Mr. Horowitz. Given the nature and the number of omissions 
and inaccuracies in there, we certainly didn't characterize 
what they had done as following the rules or complying with the 
rigor that's required of a FISA application.
    Mr. Jordan. You not only didn't characterize it in the way 
Mr. Schiff portrayed it two years ago and stated in his memo. 
You said this, "The IG report found 51 factual assertions in 
Carter Page's FISA applications that, quote, 'had no supporting 
documentation. Supporting document doesn't state fact, or 
supporting document shows factual assertion is inaccurate'." Is 
that right?
    Mr. Horowitz. And that's my reference. Before at least 17, 
there were many others that we have in our appendix that are 
supposed be followed through the Woods procedures, which is the 
factual----
    Mr. Jordan. I understand----
    Mr. Horowitz [continuing]. Were not there. Some are 
significant; some are not as significant. But there shouldn't 
be any.
    Mr. Jordan. One last question, are there any other reports 
coming? What are you working on right now in this area?
    Mr. Horowitz. We are doing a followup audit because one of 
the questions we had coming away from this was, is this 
happened--did this happen only in this case, or does the 
failures we heard about in the Woods procedures and that we saw 
in the Woods procedures, in fact, other counterintelligence 
FISAs and, something we hadn't looked at, counterterrorism 
related FISAs----
    Mr. Jordan. Can you give us a little preview of what you 
may be finding and when that report may be----
    Mr. Connolly. Thank you, Mr. Horowitz.
    The gentleman's time has expired.
    Mr. Lynch.
    I'm worried about the clock because votes have been called.
    Mr. Lynch. Thank you, Mr. Chairman.
    I appreciate that. I want to thank all the witnesses for 
your helping the committee with its work. Mr. Horowitz, have 
you ever seen a situation where the President and Members of 
Congress openly and aggressively attack a whistleblower, like 
we have with the Ukraine whistleblower?
    Mr. Horowitz. I can't say I've personally----
    Mr. Lynch. Anybody else on the panel ever see anybody, any 
whistleblower attack, especially after the report of the phone 
call was basically corroborated, remember? Anybody ever see a 
situation like that where a whistleblower was attacked by 
Members of Congress who were supposed to be the recipients of 
intelligence and information from a whistleblower? Anybody ever 
see anything like that happen? Me either.
    Ms. Hempowicz?
    Ms. Hempowicz. I would say not like this.
    Mr. Lynch. Not like this. Right. So, what do you think the 
effect on other whistleblowers will be if this whistleblower 
who basically got--based on the transcript--got it right, got 
it right. Under the Whistleblower Protection Act, if you see 
any evidence of misconduct, waste, fraud, or abuse, abuse of 
power, you're supposed to report that. And by all the evidence, 
it appears that this whistleblower, in fact, did just that. And 
then, in return for that whistleblower speaking out at great 
risk to themselves, they get attacked by the President who, on 
September 26, said that this whistleblower was akin to a 
traitor and a spy and should be treated as we used to treat 
traitors and spies. What kind of effect do you think that will 
have on whistleblowers, Ms. Hempowicz?
    Ms. Hempowicz. I would say it's certainly going to chill 
others from coming forward, especially in the intelligence 
community where it's already almost impossible to enforce their 
legal protections.
    Mr. Lynch. Mr. Horowitz, you've been up before this 
committee. You're a frequent flyer here and you do some amazing 
work. I give you great credit. What do you think that would--on 
the minds of other Federal employees who are being asked to 
report misconduct, this--and it appears, based on the evidence, 
based on the transcript, that there certainly was some evidence 
there of abuse of power--remember, a whistleblower doesn't have 
to prove the case, he just raises his hand and says: Something 
is not right here, and I'm reporting this, and I want this 
looked at.
    So, when a whistleblower does that and then Members of 
Congress, the President likens that person to a traitor and a 
spy and suggests that that person should be treated as a 
traitor or a spy like we used to do in the old days when they 
were shot, what do you think that impact has on a potential 
whistleblower out there who observes misconduct within the 
government?
    Mr. Horowitz. Individuals who step forward and report 
wrongdoing or what they reasonably believe to be wrongdoing 
should not face even the threat of retaliation. We want people 
to come forward.
    It's then our jobs as IGs and others who investigate this 
to assess whether the information is supported, but you don't 
want to attack and you shouldn't be attacking the person who 
brings that forward. They may be right; they may not be right. 
But that's for us to assess, not to attack the people that come 
forward.
    Mr. Lynch. If now we have a situation where Members of 
Congress who, again, are going to be the recipients of this 
intelligence, to protect the public trust, to protect the 
taxpayer, to protect our Government, if we, in turn, attack the 
whistleblower for reporting misconduct, should there not be--
should there not be penalties on us for violating the law, 
public officials who go for revenge, you know? I'll ask you, 
Ms. Hempowicz. You're an advocate for functioning 
whistleblowers within government. Oftentimes these departments 
are so densely controlled and they're so distant from the 
public and from the rest of Congress, we are at a loss--we 
can't drill down and find out what some of these agencies, tens 
of thousands of employees, we can't figure out what everybody's 
doing so we rely on this self-reporting. I mean, should we 
protect those individuals from retaliation from Congress as 
well?
    Ms. Hempowicz. Absolutely. And I would also add that the 
White House isn't covered by the whistleblower protection 
statutes and so it should extend to them as well.
    Mr. Lynch. Thank you.
    Mr. Chairman, my time is expired. I yield back.
    Mr. Connolly. Thank you, Mr. Lynch.
    The chair recognizes the gentleman from Wisconsin.
    Mr. Grothman. Yes. Mr. Horowitz, just because over the 
years we've asked you tons of questions, I'm comfortable with 
you, and I'll ask you some more questions. You testified last 
month, and I'll quote, "I do not think the Department of 
Justice fairly treated these FISAs, and Carter Page was on the 
receiving end."
    OK. Is that true?
    Mr. Horowitz. I recall that.
    Mr. Grothman. You also found--you found several major 
issues with FBI, an FBI case agent who was investigating Carter 
Page's investigation. We'll call him Case Agent No. 1. I just 
wanted to go over a few of them. Case Agent No. 1 never shared 
with the Justice Department information that showed Carter Page 
was innocent. For instance, he never met Paul Manafort. He told 
you he couldn't recall why that happened, correct?
    Mr. Horowitz. That's correct.
    Mr. Grothman. OK. Case Agent No. 1 wrote that Christopher 
Steele, the source for Carter Page's FISA, that Steele's work 
was previously used in criminal proceedings when that wasn't 
true and contradicted Steele's FBI handler, correct?
    Mr. Horowitz. They never shared it with the FBI handler--
handling agent who said that he thought it wasn't fully 
accurate.
    Mr. Grothman. OK. Case Agent No. 1 did not share with the 
Justice Department information that showed Papadopoulos, 
another campaign associate, of being innocent. Case Agent No. 1 
just said, ``It may have been an oversight,'' correct?
    Mr. Horowitz. There were interactions by FBI confidential 
human source with Mr. Papadopoulos where Mr. Papadopoulos made 
statements that were inconsistent with the allegations in the 
FISA, and that information was not shared, as it should have 
been, with the Justice Department.
    Mr. Grothman. OK. How can you miss something that important 
on investigation as sensitive as looking into a Presidential 
candidate? Don't you think that's odd?
    Mr. Horowitz. That was our concern with the explanations we 
received why we noted in our report that we didn't find those 
explanations convincing in the least.
    Mr. Grothman. OK. Again, with regard to Case Agent 1, who 
was in charge of putting together the Woods file for accuracy, 
you found 51 errors in his Woods file verification, right?
    Mr. Horowitz. That's correct.
    Mr. Grothman. Kind of scary, isn't it?
    Mr. Horowitz. Yes.
    Mr. Grothman. Real scary. Quoting right from your report 
again, quote, "Case Agent 1 provided the DOJ attorney with 
inaccurate information that failed to disclose the extent and 
nature of Page's relationship with that agency," end quote. 
Correct?
    Mr. Horowitz. Neither that case agent or anybody at the FBI 
shared with the Justice Department the information that Mr. 
Page had been previously in operational contact for another 
government agency.
    Mr. Grothman. Isn't that kind of scary? Kind of leads one 
not to trust the government, doesn't it?
    Mr. Horowitz. That information came to the FBI in August 
2016, well before any of the FISA applications and it should 
have prompted interactions with the other government agency to 
understand the nature of that relationship and how it might've 
impacted going forward with any FISA.
    Mr. Grothman. It's sad, isn't it? It kind of--it makes one 
not surprised at all why on all levels of our government, 
there's not trust in our government, right?
    Mr. Horowitz. It certainly creates the very deep concern 
about authorities like FISA, the use of those authorities, and 
I think that's why you see some of the orders coming from the 
FISA court now.
    Mr. Grothman. OK. I'm almost out of time. Case Agent 1 was 
actually promoted in the middle of the investigation, right?
    Mr. Horowitz. Case Agent 1 was promoted during the course 
of the investigation.
    Mr. Grothman. I know. Another case agent took over day-to-
day and this new case agent questioned if it was prudent to 
renew the FISA warrant on Carter Page but got overruled by Case 
Agent 1, correct?
    Mr. Horowitz. Two agents spoke about as we relayed in the 
report why, not only was the FISA going forward, but why Mr. 
Page was even still the subject of the investigation. It's not 
clear to us who made the ultimate decision to nevertheless go 
forward with the next FISA renewal.
    Mr. Grothman. OK. You didn't name Case Agent 1 in your 
report, but could you at least tell us, did this guy's boss 
know what he did?
    Mr. Horowitz. So, Case Agent 1's supervisor, who was a 
supervisory special agent, was responsible for double checking 
and following up on the Woods process where all of those errors 
were located, and that supervisory special agent also did not 
do their job in following up and identifying those issues.
    Mr. Grothman. Does the FBI Director Wray, does he know who 
this is, who this agent is?
    Mr. Horowitz. Yes, he does.
    Mr. Grothman. And does the Attorney General know?
    Mr. Horowitz. I believe he does.
    Mr. Grothman. OK. What did Director Wray say to you about 
this case agent? Did he say anything to you about him or her?
    Mr. Horowitz. He was very concerned about, frankly, the 
activity for all of the individuals who had responsibilities 
and didn't conform to what they are required to do under FBI 
procedures.
    Mr. Grothman. Is he still at his promoted position?
    Mr. Horowitz. I don't know as I sit here.
    Mr. Connolly. Thank you.
    Mr. Grothman. OK. Thanks. Thanks for giving me the extra 
time.
    Mr. Connolly. Absolutely. Thank you, Mr. Horowitz.
    Mr. Armstrong, you are recognized for five minutes. I 
caution you that votes have been called, and time has expired, 
but there are still 232 have not voted, and you and I are the 
two among them.
    Mr. Armstrong. I would say you can go first because I'd 
rather do this, but thank you. And I appreciate your indulgence 
for letting me sit in on this. I would point out a couple 
things, one, in the whistleblower statute, there's the right to 
protect them to remain anonymous, and there's also the point to 
protect them from retaliation. And the reason for that is, in 
various different scenarios, such as a criminal investigation 
and charges being born out of that, there's ways that are even 
civil cases that they would be subpoenaed or have to appear in 
court. Also, sometimes they're disclosed before they're ever 
protected. So, if we're going to continue to talk about a trial 
and a fairness of a trial and calling witnesses, one of the 
fundamental issues for a trial, any trial, civil or criminal, 
is the right to confront your accuser. Also, we seem to think 
that there's this bifurcation of either the whistleblower 
doesn't testify or he comes into open hearing in front of the 
Senate. As somebody who's done this my whole life, there are 
significant safeguards that exist in between those two 
spectrums. So, to say that that is a binary choice is patently 
false. And this isn't some retaliation within some agency or 
somewhere else; we're talking about the impeachment of a duly 
elected President.
    But, Mr. Horowitz, I've read your reports, and I want to 
take you back to June 2018 when the Clinton email server 
investigation report came out, and in that report, FBI 
officials involved sent messages on their FBI devices that 
created the appearance of political bias, and this was Strzok 
and Page, correct?
    Mr. Horowitz. Among others.
    Mr. Armstrong. And you did not have confidence that 
Strzok's decisions at the end of the 2016 Presidential campaign 
to prioritize Trump/Russia over the new Clinton emails was free 
from bias and that he and other FBI employees brought discredit 
to themselves and hurt the FBI's reputation?
    Mr. Horowitz. That was our finding.
    Mr. Armstrong. And you also sharply criticized Director 
Comey for his public statements about the Clinton email case 
when he wouldn't recommend charges and then, in October 2016, 
he told Congress new emails were found, right?
    Mr. Horowitz. That's correct.
    Mr. Armstrong. And he usurped the authority of the Attorney 
General, chose to deviate from established procedures, engaged 
in his own ad hoc decisionmaking, and you concluded that 
following established procedures are most important when the 
stakes are the highest, correct?
    Mr. Horowitz. That's correct.
    Mr. Armstrong. But yet the final report said this report 
did not find any evidence of political bias or improper 
consideration actually impacting the investigations?
    Mr. Horowitz. We found that the decisions that were made by 
the prosecutors not to prosecute and some of the other 
decisions we looked at were not impacted by bias.
    Mr. Armstrong. And in your newest report, you said the 
Justice Department failed to interview key figures or vet 
critical information and sources in the Steele dossier. They 
wouldn't interview campaign officials because they feared that 
they were compromised, but at the same time, CIA Director 
Brennan had told the Russians directly. So, the Russians knew 
about the investigation, but the Trump campaign didn't, 
correct?
    Mr. Horowitz. Frankly, I don't know what Mr. Brennan has 
said he spoke to the Russians about.
    Mr. Armstrong. And the CIA told the FBI that Carter Page 
was working for them?
    Mr. Horowitz. I'm not sure.
    Mr. Armstrong. But the FBI never disclosed that to the FISA 
court?
    Mr. Horowitz. I'm sorry. Could you ask that----
    Mr. Armstrong. The FBI never closed that Carter Page was 
working for the CIA to the FISA court?
    Mr. Horowitz. I can't talk about anything other than what's 
in my report at this point because it would--anything else 
would be classified.
    Mr. Armstrong. Did the DOJ determine that there was no 
probable cause for a FISA warrant on Page?
    Mr. Horowitz. The DOJ recently on the day we released our 
report sent a letter to the FISA court saying that, at least as 
with regard to the final two renewal applications, they 
concluded there was insufficient evidence to support the 
probable cause.
    Mr. Armstrong. Was there an intervention from the highest 
levels of the FBI ordering agents to look at the Steele 
dossier?
    Mr. Horowitz. When the dossier came in, the discussions 
subsequent to that in advance of the FISA went all the way up 
to the leadership of the FBI, and they were aware of the fact 
of the Steele reporting and its decision to rely on it.
    Mr. Armstrong. And that was actually Andy McCabe, right? 
Correct?
    Mr. Horowitz. Mr. McCabe was involved in those discussions, 
and as we lay out in connection with the discussions with the 
intelligence community assessment, both Mr. McCabe and Mr. 
Comey had discussions with their counterparts about including 
the Steele reporting in the ICA.
    Mr. Armstrong. And the FBI affirmed that Steele was viewed 
as a reliable witness even though they knew in previous 
instances he had not been reliable, right?
    Mr. Horowitz. The FBI laid out in their application why 
they found him to be reliable, but did not go to the handling 
agent to look at that statement, which the handling agent told 
us was not fully accurate.
    Mr. Armstrong. So, what they knew and what was put in the 
FISA warrant were two different things, and in order to keep 
the investigation into President Trump's campaign going, the 
FBI lied and omitted key information from the FISA court.
    And, with that, I yield back.
    Mr. Connolly. I thank the gentleman for his assertion. It 
is now the chairman's time to ask questions, and I'm going to 
deal with you, Mr. Rosenzweig--I know--because you look bored.
    Mr. Rosenzweig. It's not bored, Your Honor.
    Mr. Connolly. It's only fair. Somebody said, well, the 
whistleblower has a bias. Let me ask you this question, if 
someone's biased, does it mean that what they say is untrue?
    Mr. Rosenzweig. No.
    Mr. Connolly. No. So, Ms. Hempowicz saying, ``Frankly, 
that's interesting but irrelevant,'' is correct in the context 
of a whistleblower's veracity? We got to go fast.
    Mr. Rosenzweig. Like Mr. Armstrong, I've been prosecuting 
cases all my life. The question is not bias or motive of the 
witness; it's whether or not what they say is corroborated by 
other evidence.
    Mr. Connolly. Thank you.
    Mr. Armstrong. I did defense.
    Mr. Rosenzweig. What?
    Mr. Armstrong. Sorry. I did defense.
    Mr. Rosenzweig. Oh, sorry. I do that now.
    Mr. Connolly. So, here's another one. It wasn't firsthand 
knowledge. So, if we required all whistleblowers to have 
firsthand knowledge, I dare say there wouldn't be many 
whistleblowers left.
    Mr. Rosenzweig. We'd have very few.
    Mr. Connolly. Very few. Is there something in law or even 
standard practice that requires a whistleblower who comes 
forward to only produce firsthand knowledge or we dismiss them?
    Mr. Rosenzweig. No. In fact, in most instances, they rely 
on secondhand knowledge, as does every human being in their 
everyday life.
    Mr. Connolly. So, all of a sudden, we have a new standard 
that crops up because we don't like the content of what the 
whistleblower has to say about the President of the United 
States; he or she didn't have firsthand knowledge. And that's a 
new standard that would jeopardize whistleblowing in the 
Federal Government, period. Would that be a fair thing to say, 
Mr. Rosenzweig?
    Mr. Rosenzweig. I would be very concerned if we threw the 
baby out with the bathwater and wound up, after the current 
controversy, in a situation where there were fewer 
whistleblowers who were disincentivized from coming forward.
    Mr. Connolly. By the way, I think Mr. Colapinto talked 
about nobody likes a rat, which is kind of an unfortunate turn 
of phrase, but the fact of the matter is, often whistleblowers 
might come in different packages, sizes, designs, and 
characters, not all of which are appealing. That doesn't--that 
doesn't--mean their testimony is, in fact, invalid, however, 
unpopular or unappealing they may be as a personality.
    Mr. Rosenzweig. In criminal law, we call them confidential 
informants. In intelligence, we call them sources. In 
whistleblower law, we call them rats.
    Mr. Connolly. I think final for me--no, I have one more. 
Motive matters, Mr. Jordan said. Motive matters meaning if I 
don't like the motive, the testimony of the whistleblower in 
question is discounted, is invalidated. Look, I may have the 
darkest, meanest motive in the world, it doesn't per se 
discredit my testimony. Is that correct?
    Mr. Rosenzweig. It's correct. It means we should look at it 
and carefully and determine whether it's true.
    Mr. Connolly. And whistleblowers are not necessarily 
witnesses at a trial. They're sources of information upon which 
we act. Is that fair, Mr. Horowitz?
    Mr. Horowitz. That's correct.
    Mr. Connolly. So, when somebody says the President, for 
example, is entitled to this notion that I get to face my 
accuser, well, it's not quite the right analogy. We're not in 
that situation. The whistleblower is a source upon which others 
may act to determine veracity of questions. Is that correct?
    Mr. Horowitz. When you're dealing with that kind of 
information, whether you're a prosecutor, an IG, or whomever, 
you're trying to corroborate and go from there. It doesn't 
necessarily mean that the whistleblower becomes a witness.
    Mr. Connolly. Right. We have to go vote. I rest my case. 
There's been nothing but red herrings about the whistleblower, 
and what bothers me--I'll end on this note--is the threat to 
disclose the identity of the whistleblower. Let me tell you, if 
that happens, because of who the whistleblower was talking 
about, we have jeopardized the entire protection of every 
whistleblower going forward, and I find that unbelievable 
hypocrisy when this Congress and previous Congress' on a 
bipartisan basis have spent years talking sanctimoniously about 
protecting whistleblowers. Well, it's the hard cases that 
require the protection, not the easy ones.
    I thank you all so much for coming today, and we have some 
items, without objection, to enter into the record.


                                 <all>
</pre></body></html>
